<html>
<title> - [H.A.S.C. No. 113-85] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-85]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

      AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                             MARCH 12, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 




                  U.S. GOVERNMENT PRINTING OFFICE
87-617                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                      COMMITTEE ON ARMED SERVICES



                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
               David Sienicki, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, March 12, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request from the Department of the Navy...     1

Appendix:

Wednesday, March 12, 2014........................................    51
                              ----------                              

                       WEDNESDAY, MARCH 12, 2014
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Amos, GEN James F. USMC, Commandant of the Marine Corps..........     9
Greenert, ADM Jonathan, USN, Chief of Naval Operations...........     6
Mabus, Hon. Ray, Secretary of the Navy...........................     4

                                APPENDIX

Prepared Statements:

    Amos, Gen James F............................................   125
    Greenert, ADM Jonathan.......................................    91
    Mabus, Hon. Ray..............................................    60
    McKeon, Hon. Howard P. ``Buck''..............................    55
    Smith, Hon. Adam.............................................    57

Documents Submitted for the Record:

    Charts from Admiral Greenert.................................   147
    Letter to Ms. Speier from Acting Under Secretary of Defense..   149

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................   153
    Mr. Jones....................................................   153
    Mr. Scott....................................................   154
    Ms. Speier...................................................   154

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   158
    Mr. Brooks...................................................   164
    Mr. Coffman..................................................   164
    Mr. Conaway..................................................   161
    Mr. Kline....................................................   160
    Mr. Langevin.................................................   158
    Mr. McKeon...................................................   157
    Mr. Shuster..................................................   161
    Mrs. Walorski................................................   165
    Mr. Wilson...................................................   157
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 12, 2014.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I want to thank you all for joining us here today as we 
consider the fiscal year 2015 budget request for the Department 
of the Navy. I appreciate our witnesses' testimony and their 
support of our naval forces.
    Joining us today are the Honorable Ray Mabus, Secretary of 
the Navy; Admiral Jonathan Greenert, Chief of Naval Operations; 
and General James Amos, Commandant of the Marine Corps.
    Our naval forces are the best in the world. They provide 
our Nation with an incredible ability to project power and 
strength and strengthen the U.S. presence around the world. 
Unfortunately, the largest threat to our naval forces is one of 
our own making. Defense cuts continue to have a debilitating 
effect on our ability to deploy naval forces in sufficient 
capacity to meet our Nation's defense strategy and the needs of 
our military commanders. For the Navy, this budget outcome 
means decommissioning an aircraft carrier.
    Just last week Admiral Locklear, Commander of the U.S. 
Pacific Command, indicated that the Navy cannot meet the global 
demand for aircraft carriers, yet the budget request includes 
no funding for refueling and overhaul, forcing the Navy to 
decommission the USS George Washington which has over 25 years 
of hull life remaining.
    The budget outcome also means cutting force structure. 
Despite the repeated requirement for a minimum 306-ship Navy, 
the budget request funds a 283-ship Navy. Secretary Mabus, you 
have characterized our defense strategy as inherently a 
maritime strategy, yet the administration has also outlined 
significant reductions in our submarine forces, amphibs 
[amphibious assault ships], and cruisers.
    Finally, this budget outcome means cutting end strength. A 
reduction to 175,000 marines would significantly strain the 
force and reduce dwell time. It also means that the Marines 
have to be all in, to deter or defeat aggression in just one 
region of the world.
    These drastic nonsensical cuts should stir immense debate. 
Is this the Navy that the Americans want? This assumes more 
than just increased risk, as Secretary Hagel stated last week. 
The security environment and need for naval forces have not 
abated, yet this is a fundamental piecemeal dismantling of the 
world's greatest Navy.
    Now, I am not pointing the fingers at you. We are the ones 
that voted for these cuts, some of us, and the budget deal that 
was arrived at by our House Budget Committee, the Senate Budget 
Committee, voted on and signed by the President in December, 
actually set a 2-year budget number. So I don't even know why 
we are going through this actually this year because the number 
is already set and this I guess just gives us talking points to 
debate about. But the budget is fixed by law for this year and 
the appropriators already have their numbers and they are 
already moving forward and the Senate has said that they are 
not even going to address a budget issue this year.
    But it is good to plan and think out ahead and look forward 
to the future, and I really appreciate you being here today. I 
think it is important that we have a good debate about this, 
that the American people understand how much we have cut 
defense the last couple of years and what the numbers look like 
going forward for the next several years.
    I think it is putting us in great jeopardy and I am going 
to plan on doing everything I can within my power to reverse 
this dangerous trajectory. I will do that by leaving, probably, 
get out of the way and let somebody else carry on the fight. As 
I have told people, I am not planning on leaving the fight, I 
am just leaving Congress.
    Anyway, thank you very much for being here with us today. 
We look forward to your testimonies.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 55.]
    The Chairman. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and I welcome our 
witnesses as well. I appreciate your collective service to our 
country. It has been great working with all of you. I think you 
do a fabulous job to make sure that the men and women under 
your command are well served, and I appreciate all of your work 
in that regard.
    The good news is we do still have the most powerful, 
capable Navy and Marine Corps in the world. Your ability to 
project presence around the world, the size of your force, is 
unmatched, and, you know, we cannot forget that and the 
importance of that and the strength and capability that we 
have.
    However, the chairman correctly laid out the challenges 
that the future will bring. Because in the first place, the 
United States has a lot more obligations globally than any 
other country in the world. We are, just to give one example, 
the guarantors of peace for South Korea and Japan. We are a 
significant deterrent to what North Korea would otherwise do. 
That doesn't come cheap, and the Navy and Marine Corps are 
critical, critical piece of that deterrent.
    If we are going to be able to maintain that capability, we 
are going to have to make some very, very tough choices going 
forward. And you know as bad as the fiscal year 2015 budget is 
for a lot of the cuts that have been proposed, it is going 
forward beyond that that I think is the real challenge.
    Now, I will say one thing, Mr. Chairman. Yes, the fiscal 
year 2015 top number is set, but we have to figure out how we 
spend that money. The Pentagon, the DOD [Department of Defense] 
and the President have presented their initial budget request 
and it is our job to figure out is that the best way to spend 
that top line number. We will have that debate and undoubtedly 
make some changes.
    But going forward, when you look at 2016 and beyond, if 
sequestration kicks in, I think these two gentlemen before us 
and their services are an excellent example of just how 
troublesome that is. You know, the Marine Corps has been shrunk 
down to 182,000. If we face sequestration, that number is going 
to have to go even lower than that.
    In the Navy, you know we are consistently concerned about 
the fact that we are well under the number of ships that the 
requirements say we should have. We are currently building 2 
Virginia-class submarines a year, 2 destroyers a year, I 
forget, 2/3 LCSs [littoral combat ships] a year, and we are 
trying to maintain an 11-aircraft carrier Navy.
    Virtually none of that is going to be possible if 
sequestration kicks in 2016. I don't see how we can maintain 11 
aircraft carriers at that budget. I don't think we will be able 
to build the number of ships that we have projected to build, 
and that significantly reduces our presence and there are 
enormous challenges if we have to do that.
    Now, that is not to say that savings cannot be found in the 
defense budget. Certainly it can; we saw a significant increase 
in the spending, though as I believe the Navy will point out, a 
lot of that increase did not go to the Navy during the course 
of our wars in Iraq and Afghanistan.
    But we saw those increases and efficiencies can be found, 
and about 3 years ago, the Department of Defense sat down and 
looked out at the next 10 years and said what should our 
strategy build be? And they built that strategy, and they built 
in some reductions in expected spending. Those reductions were 
around $500 billion. But now with sequestration and CRs 
[continuing resolutions], those numbers, the size of those cuts 
become much, much more significant.
    But I will close just with two things. Number one, as we go 
into fiscal year 2015 and we look at some of the cuts that have 
been proposed, I think most prominent with this group is the 
proposal to take 11 cruisers out of service to retrofit them 
for a certain period of time, if we are not going to do those 
things that are proposed in the 2015 budget because of the 
reality that the chairman points out, we have a top line 
number, then it is incumbent upon our committee to say what we 
would cut instead. It is not enough to just rail against 
reductions in the Guard or rail against setting aside those 11 
cruisers or getting rid of the A-10s and some of the other 
decisions that we have made. We have to propose alternatives 
for 2015.
    But the second, I think more important point, is going 
forward. The impact on our national security and the impact on 
our industrial base of sequestration for national defense will 
be significant. There will be a lot of jobs lost if we don't 
change it. Well, how do we change it? Really there is some 
combination of three things we need to do. We need to turn off 
sequestration which is devastating the discretionary portion of 
the budget. Defense is over half the discretionary portion of 
the budget. That is the primary place that we found cuts both 
in the Budget Control Act and in the budget agreement that was 
reached in December.
    So we have to deal with sequestration and/or we have to 
increase revenues somehow or reduce the amount of money that we 
spend on mandatory programs. Now, I will grant you that I think 
everybody here would have some different combination of how 
they do those three things, but if you refuse to do any of 
those three things, if we leave sequestration in place, if we 
don't find more revenue, if we don't find reductions in 
mandatory spending, then the 2015 budget is going to be looked 
back on as the high-water mark of what we have accomplished in 
national security. As much as we are bemoaning the reality of 
it today, if those changes that I just mentioned don't get made 
in 2016 and 2017, we are going to look back on this as the good 
old days.
    So these are some tough choices that we have to make, and 
figure out. Like I said, we can disagree about how to do it, 
how much revenue to raise or not, how much to reduce mandatory 
spending or not, what to do about sequestration, but if we let 
current law stand, our national security picture and 
particularly in the very, very important area of the Navy and 
the Marine Corps and the forward presence that they bring will 
be significantly shrunk from what it is today.
    So we have some tough decisions to make and you gentlemen 
do as well. I look forward to your testimony, questions, and 
then trying to figure out the best way to make those difficult 
decisions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 57.]
    The Chairman. Thank you.
    Secretary Mabus, thank you for your service, for your 
leadership in these very difficult times. I look forward to 
your testimony.

       STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

    Secretary Mabus. Thank you, Mr. Chairman.
    Congressman Smith, members of this committee, first I want 
to thank you for your support of the Department of the Navy, of 
our sailors, our marines, our civilians, and our families.
    General Amos, the Commandant of the Marine Corps, Admiral 
Greenert, Chief of Naval Operations and I couldn't be prouder 
to represent those courageous and faithful sailors, marines, 
and civilians. These men and women serve their Nation around 
the world with skill and with dedication no matter what 
hardships they face, no matter how far from home and family 
they are.
    The architects of our Constitution recognized the inherent 
value of the United States Navy and Marine Corps, and this 
Article I, Section 8, which is on a plaque in this hearing 
room, gave Congress the responsibility to ``provide and 
maintain a Navy,'' because our Founding Fathers knew that the 
Nation needed a naval force to operate continuously in war and 
in peace.
    Over two centuries ago the United States had a crucial role 
in the world. Today that role is exponentially greater. Whether 
facing high-end combat or asymmetrical threats or humanitarian 
needs, America's maritime forces are ready and present on day 
one of any crisis, for any eventuality.
    In today's dynamic security environment, naval assets are 
more critical than ever. In military terms, they provide 
presence, presence worldwide. They reassure our partners that 
we are there and remind potential adversaries that we are never 
far away. This presence provides immediate and capable options 
for the Commander in Chief when a crisis develops anywhere in 
the world.
    In the past year, our naval forces have operated globally 
from across the Pacific to the continuing combat in Afghanistan 
and from the Gulf of Guinea to the Arctic Circle. The 2012 
Defense Strategic Guidance and the newly released QDR 
[Quadrennial Defense Review] are both maritime in focus, as you 
pointed out, Mr. Chairman, and require presence of naval forces 
around the world.
    Four key factors make that global presence and global 
action possible. These four factors--people, platforms, power, 
and partnerships--have been my priorities during my tenure as 
Secretary and they have to continue to receive our focus 
looking ahead. In our fiscally constrained times we have used 
these priorities to help balance between the readiness of the 
force, our capabilities, and our capacity.
    Our people are our biggest advantage and we must ensure 
that they continue to get the tools they need to do their jobs. 
In compensation, we have increased sea pay to make sure those 
sailors and marines deployed aboard ship are appropriately 
recognized. However, this budget also seeks to control the 
growth of military compensation and benefits which threatens to 
impact all the other parts of our budget. If this isn't 
addressed, as the CNO [Chief of Naval Operations] puts it, the 
quality of work for our sailors and marines will almost 
certainly decline.
    Shipbuilding and our platforms remain key elements of our 
maritime power and a focus of this committee. The number of 
ships, submarines, and aircraft in our fleets is what gives us 
the capacity to provide that global presence. While we have the 
most advanced platforms in the world, quantity has a quality 
all its own and I think it is important to understand how we 
got to our current fleet size.
    On September 11, 2001, our fleet stood at 316 ships. By 
2008, after one of the great military buildups in American 
history, that number had dropped to 278 ships. In the 4 years 
before I took office as Secretary, the Navy put 19 ships under 
contract. Since I took office in May of 2009, we have put 60 
ships under contract. And by the end of this decade our plan 
will return the fleet to 300 ships. We are continuing our 
initiatives to spend smarter and more efficiently, which are 
driving down costs through things like competition, multiyear 
buys, and just driving hard bargains for taxpayer dollars.
    Power, energy, is a national security issue and central to 
our naval forces and our ability to provide that presence. 
Dramatic price increases for fuel threatens to degrade our 
operations and training and could impact how many platforms we 
can acquire. Having more varied stably priced American produced 
sources of energy makes us better warfighters. From sail to 
coal to oil to nuclear and now to alternative fuels, the Navy 
has led in energy innovation.
    Since the end of World War II, U.S. naval forces have 
protected the global commons to maintain the foundations of the 
world's economy. In today's complex environment, partnerships 
with other nations, evidenced by interoperability, by exercises 
and operations, continue to increase in importance. The Navy 
and Marine Corps, by their very nature and by that forward 
presence, are naturally suited to develop these relationships, 
particularly in the innovative small footprint ways that are 
required.
    With the fiscal 2015 budget submission, we are seeking 
within the fiscal constraints imposed to provide our Navy and 
Marine Corps with the equipment, the training, and the tools 
needed to carry out the missions the Nation needs and expects 
from them. There are never any permanent homecomings for 
sailors and marines. In peacetime, wartime and all the time, 
they remain forward deployed, providing presence and providing 
whatever is needed by our Nation. This has been true for 238 
years and it is our task to make sure it remains true now and 
into the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 60.]
    The Chairman. Thank you, Mr. Secretary.
    Admiral Greenert, there is a quote that is perfect for a 
Navy hearing. Anyone can hold the helm under smooth seas, but 
it is a testimony to your leadership the way you have handled 
the helm in very rocky seas. Thank you. I appreciate what you 
are doing. I look forward to your testimony.

    STATEMENT OF ADM JONATHAN GREENERT, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Greenert. Thank you, sir. That is very kind when 
you are talking to a submariner as well, but I will take it 
aboard. Thank you, sir.
    Chairman McKeon, Ranking Member Smith, and distinguished 
members of the committee, first, Mr. Chairman, I would like to 
thank you for 22 years of exceptional support that you have 
given the men and women of our Navy. Your efforts, sir, have 
really helped ensure the preeminence of American seapower. You 
are always thanking us for our service. So, Mr. Chairman, your 
sailors and Navy salute you and Patricia for your service. And 
we would all give you a standing ovation but this table, we are 
all crumpled in here and the table would come over and it would 
be very disruptive so we will keep decorum up, if that is okay 
with you.
    I am honored to represent 633,000 sailors, Navy civilians, 
and their families, especially the 50,000 sailors deployed and 
operating forward around the globe today. The dedication and 
resilience of our people continue to amaze me, and the citizens 
of this Nation can take great pride in their daily 
contributions. Those are their sons and their daughters in the 
places around the world that count.
    I am pleased to testify this morning beside Secretary Mabus 
and General Amos. Your Navy-Marine Corps team is united in 
fulfilling our longstanding mandate to be where it matters, 
when it matters, and to be ready to respond to crises to ensure 
the stability that undermines this global economy.
    General Amos has been a great shipmate. Our respective 
services' synergy of efforts has never been better and 
Secretary Mabus has provided Jim and I the vision, the 
guidance, and the judiciousness that we need to build the 
finest Navy and Marine Corps that this Nation is willing to 
afford.
    Forward presence is our mandate. We operate forward to give 
the President the options to deal promptly with contingencies. 
As we conclude over a decade of wars and bring our ground 
forces home from extended stability operations, your naval 
forces will remain on watch.
    This chartlet that I gave each of you in front of you shows 
today's global distribution of deployed ships as well as our 
bases and our places that support them. In the block in the 
lower left it will also tell you how long it will take if we 
are not there to get from respective ports and areas in the 
United States.
    [The information referred to can be found in the Appendix 
on page 147.]
    Admiral Greenert. Now, our efforts are focused in the Asia-
Pacific, I think you can see that and the Arabian Gulf, but we 
provide presence and we respond as needed in other theaters as 
well. With this forward presence over the last year we were 
able to influence and shape the decisions of leaders in the 
Arabian Gulf, Northeast Asia, and the Levant.
    We patrolled off the shores of Libya, Egypt, and the Sudan 
to protect American interests and induce regional leaders to 
make the right choices. We relieved suffering and provided 
assistance along with our Marine Corps brothers and sisters and 
recovery in the Philippines in the wake of a devastating 
typhoon. Our presence dissuades aggression and it dissuades 
coercion against our allies and friends in the East and the 
South China Seas. We kept piracy at bay in the Horn of Africa. 
And we continued to support operations in Afghanistan while 
taking the fight to insurgents, terrorists, and their 
supporting networks across the Middle East and Africa with our 
expeditionary forces and supporting our special operations 
forces.
    The 2014 budget will enable an acceptable forward presence. 
It is acceptable, but through the remainder of the year we will 
be able to restore a lot of our fleet training and our 
maintenance and our operations and we will recover a 
substantial part of that 2013 backlog that we talked about 
quite a bit in this room.
    The President's 2015 budget submission enables us to 
continue to execute these missions, but we are going to face 
some high risks in specific missions articulated in the Defense 
Strategic Guidance. Our fiscal guidance through this Future 
Year Defense Plan is about halfway between the Budget Control 
Act caps and our Pres-Bud 14 [President's budget for fiscal 
year 2014] plan. It is a net decrease of still $31 billion when 
you compare it with Pres-Bud 14. So to prepare our program 
within these constraints, I set the following priorities and 
Secretary Mabus supported me.
    Number one, we have to provide the sea-based strategic 
deterrent; two, forward presence; three, the capability and the 
capacity to win decisively; number four, the readiness to 
support the above; five, that we maintain and bring in 
asymmetric capabilities and maintain a technological edge; and, 
number six, to sustain a relevant industrial base.
    Now using these priorities, we built a balanced portfolio 
of capabilities within the fiscal guidance that we were 
provided. We continue to maximize our presence in the Asia-
Pacific and the Middle East using innovative combinations of 
rotational, forward based rotational forces, forward basing and 
forward stationed forces. We still face shortfalls in support 
ashore and a backlog in facilities maintenance that erode the 
ability of our bases to support the fleet.
    We have slowed modernization in areas that are central to 
remain ahead of or keep pace with, technologically advanced 
adversaries. Consequently, we face higher risk if confronted 
with a high-tech adversary or if we attempt to conduct more 
than one multiphased major contingency simultaneously.
    Mr. Chairman, as I testified before you in September, I am 
troubled by the prospect of reverting to the Budget Control Act 
revised caps in 2016. That would lead to a Navy that is just 
too small and it is lacking the advanced capabilities needed to 
execute the missions that the Nation expects of the Navy. We 
would be unable to execute at least 4 of the 10 primary 
missions that are laid out very clearly in the Defense 
Strategic Guidance in the Quadrennial Defense Review.
    If you look at the back of the chartlet that I showed you 
that has got the ships on the front, you will see that our 
ability to respond to contingencies is dramatically reduced in 
this future scenario of being retained at budget control caps. 
It limits our options and it limits the Nation's decision space 
and we would be compelled to inactivate an aircraft carrier and 
an air wing.
    [The information referred to can be found in the Appendix 
on page 148.]
    Admiral Greenert. Further, our modernization and our 
recapitalization would be dramatically reduced and that 
threatens readiness and our industrial base. If we revert to 
the Budget Control Act caps year by year it will leave our 
country less prepared to deal with crises, our allies' trust 
will wane, and our enemies will be less inclined to be 
dissuaded or to be deterred.
    So, Mr. Chairman, I am on board with the efforts to get the 
fiscal house in order. I look forward to working with the 
committee to find solutions that enable us to sustain readiness 
while building an affordable but a relevant future force. This 
force has to be able to address a range of threats, address 
contingencies and high consequence events that could impact our 
core interests.
    I appreciate the opportunity to testify today and I thank 
you and the committee for your continued support and I look 
forward to your questions.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 91.]
    The Chairman. Thank you very much. I got to spend a couple 
nights on a submarine under the Arctic ice cap. That was a 
great experience. A lot of times when we travel we get to shake 
a few hands and say ``hi'' to a few troops and then move on and 
probably never see them again. But after 2 days, we kind of 
bonded. You know, we could play games and watch movies and eat 
together, and it was interesting.
    And then I went to Virginia a few years ago when we did 
the--welcomed the USS California into the fleet, and I was able 
to show my wife this is where we ate, this is where we played 
cards, this is where I slept. You know, she couldn't believe I 
slept in a space that small. It was a great, great experience.
    I want to especially recognize General Amos, the 35th 
Commandant of the Marine Corps, in his last posture hearing 
before our committee. I made the mistake yesterday when we were 
talking, saying this is your last hearing. Because he says, oh, 
you know, let's not be pushing him out before he is done. He 
has got a lot of work to do before he leaves. But this is his 
last posture hearing.
    And, few will ever know the full burden of command, and the 
general has shouldered it admirably. He has been faced with 
difficult issues and equally difficult decisions. All the while 
he has kept our men and women in uniform in the forefront of 
his decisionmaking and has continued to be a tireless advocate 
for them. The committee appreciates his honesty, his candor, 
and his counsel, and I think our Nation is better having had 
the privilege of his military service.
    He told me when he got this job that he would not be a part 
of hollowing out the Marine Corps. And so the way they have 
handled the cuts is they have kept them a fighting force. They 
are not going to be spread out and try to have to pull together 
when they are needed, and I think that has been very, very 
important.
    General Amos, I look forward to hearing your testimony.

STATEMENT OF GEN JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Thank you, Chairman McKeon, Ranking Member 
Smith, and members of the committee.
    Again I am pleased to appear before you to speak on behalf 
of the Marine Corps. And Chairman, I echo my colleague Jon 
Greenert's strong comments and appreciation for your 
leadership.
    I suspect that every service chief that has sat at this 
desk, and we have certainly sat with all of them over the last 
3 to 4 years, feels that you love their service the most, and 
that is a unique ability of leadership to get them to believe 
that, because your Marine Corps feels like you care for us more 
than you care for anybody else when in fact I know that you 
care for all of us equally the same.
    So thank you for your leadership, Chairman, and this 
committee and Congress and the United States of America will 
sorely miss you when you retire later this year.
    Since our founding in 1775, marines have answered the 
Nation's call, faithfully protecting the American people while 
maintaining a world-class standard of military excellence. 
Nothing has changed, we continue to do the same even as we meet 
here today. Yet we find ourselves at a strategic inflection 
point in history. After 12 years of war we are drawing down our 
forces in Afghanistan, resetting our institution, and 
reawakening the soul of the United States Marine Corps.
    Today we are challenged by fiscal uncertainty that 
threatens both our capacity and capabilities, forcing us to 
sacrifice our long-term health for near-term readiness. As I 
have testified before this committee many times, despite these 
challenges I remain committed to fielding the most capable and 
ready Marine Corps the Nation is willing to pay for.
    Our greatest asset is the individual marine, the young man 
and woman who wears my cloth. Our unique role as America's 
premier crisis response force is grounded in the legendary 
character and warfighting ethos of our people. As we reset and 
prepare for future battles, all marines are rededicating 
themselves to those attributes that carried marines across the 
wheat fields and into the German machine guns at Belleau Wood 
in March of 1918.
    Those attributes that enabled raw combat-inexperienced 
young marines to courageously succeed against a determined 
enemy at America's first offensive campaign in the Pacific, the 
attack at Guadalcanal by the 1st Marine Division in August of 
1942, and lastly those timeless strengths of character and gut 
courage that enabled marines to carry the day in an Iraqi town 
called Fallujah and against a determined enemy in the Taliban 
strongholds of Marja and Sangin.
    Your corps is rededicating itself to the timeless 
attributes of persistent discipline, faithful obedience to 
orders and instruction, concerned and engaged leadership, and 
strict adherence to standards. These ironclad imperatives have 
defined our corps for 238 years. They will serve us well in the 
decades to come.
    As we gather here today some 30,000 marines are forward 
deployed around the world promoting peace, protecting our 
Nation's interests, and securing our defense. But we don't do 
this alone. Our partnership with the Navy provides America an 
unmatched naval expeditionary capability.
    Our relationship with the United States Navy is symbiotic. 
My relationship with Admiral Jon Greenert is unprecedented. 
This is why I share CNO's concerns about the impacts associated 
with a marked paucity of shipbuilding funds.
    America's engagement throughout the future security 
environment of the next two decades will be undoubtedly naval 
in character. To be forward engaged and to be present when it 
matters most means we need capital ships and those ships need 
to be loaded with United States Marines. Expeditionary naval 
forces are America's insurance policy. We are a hedge against 
uncertainty in an unpredictable world.
    The Navy and Marine Corps team provides power projection 
from the sea, responding immediately to crises when success is 
measured in hours, not in days. From super typhoon that 
tragically struck the Philippines late last year to the rescue 
of American citizens in South Sudan over Christmas, your 
forward deployed naval forces were there. We carried the day 
for the United States of America.
    As the joint force draws down and we conclude combat 
operations in Afghanistan, some argue that we are done with 
conflict. My view is different. The world will remain a 
dangerous place. There will be no peace dividend for America 
nor will there be a shortage of work for its United States 
Marines. Ladies and gentlemen, we will not do less with less, 
we will do the same with less.
    In closing, you have my promise that we will only ask for 
what we need. We will continue to prioritize and make the hard 
decisions before coming to Congress.
    And once again I thank the committee and specifically your 
leadership, Mr. Chairman. I look forward to your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 125.]
    The Chairman. Thank you very much.
    As I stated in my opening remarks, I am concerned about our 
aircraft carrier force structure. If a nuclear refueling of the 
George Washington is not supported, our carriers will be 
reduced from 11 to 10.
    Last year when Admiral Greenert,<dagger> PACOM [United 
States Pacific Command] Commander, testified before the 
committee, he commented about the problem. There was a flare-up 
in Korea at the time and he said usually when that happens he 
sends a carrier out and that has a calming effect. He said he 
didn't have a carrier to send, he said then I would send a B-2. 
That also has a calming effect. We didn't have a B-2 to send, 
he says then I send some F-22s, and we didn't have any F-22s to 
send.
---------------------------------------------------------------------------
    <dagger> Admiral Samuel Locklear was the PACOM Commander who 
testified.
---------------------------------------------------------------------------
    I think I mentioned yesterday, I think the main purpose of 
our military is to prevent war, to keep from having to go to 
war, to be a strong deterrent. If that is not possible, and 
that generally comes when we are weakened or perceived by 
potential adversaries that we are weakened and they sense an 
opportunity, then we have to sometimes engage in war and then 
your responsibility is to win those wars as quickly as possible 
and return as many of our people home safely as possible.
    Secretary Mabus, Admiral Greenert, last week Admiral 
Locklear testified again before our committee and he stated 
that we have insufficient carriers to meet the global demand. 
He was questioned--I enjoyed the discussion between him and Mr. 
Smith--about the need for the carriers and the forward 
presence.
    Do you concur that the demand signal for aircraft carriers 
is more than what the Navy can currently fulfill?
    Secretary Mabus. The demand signal from combat commanders 
for carriers and for all our types of ships is more than we can 
currently fulfill and we want to keep the 11th carrier and its 
associated air wing very much. What we have done in this budget 
is move that decision to fiscal year 2016 so that there is time 
to debate it, to take a close look at what would be the 
realities if we did decommission this.
    First, there is a law that says we must maintain 11 
carriers. But, secondly, CNO, Admiral Locklear have all 
discussed the impact of only having 10 carriers in the fleet.
    Your deployments, which are already long and getting 
longer, would get longer still. The stress would increase on 
our force. The presence that we need for those carriers would 
be impacted. The industrial base that builds and maintains our 
carriers would be very negatively affected. The ability to 
maintain the carriers that we had because of the increased 
usage of the ones that remained would also be called into 
question.
    So, it would have some very serious consequences, to have 
to retire this carrier. To keep it over the 5 years starting in 
fiscal year 2016, is a $7 billion additional bill, and there 
are very few places that you can find $7 billion in any budget. 
And so, if we go back to the sequester level, that would be one 
of the options we would almost certainly have to put on the 
table because of the large cost and because of the decline in 
the amount of money that was available.
    Admiral Greenert. Mr. Chairman, Admiral Locklear has been 
clear since he took the watch in the Pacific Command what he 
needs for aircraft carriers, and he said I need two there full-
time, and then about 3 months a year to 4 months a year I 
actually need a third, and he times that based on the events 
out there.
    Admiral Locklear, the Department of Defense gives him an 
assignment, it is called the global employment of the force, 
and within it, provides aspirations if you will or key 
principles that each of our combatant commanders have to meet 
on behalf of the Secretary of Defense and really the Nation. 
And also he has operational plans, he is responsible for four 
of the seven treaties that we have out there and the 
sustainment.
    So he has been pretty clear on what he needs, and it is I 
think we call it 2.3. And if you take into account on the back 
of the sheet for a reminder, for us to meet what the combatant 
commanders request, we need a Navy of 450 ships, Mr. Chairman. 
So what we do is we adjudicate the distribution of forces, as 
the Secretary alluded to, based on the Navy that we have, where 
we are, and distribute them accordingly.
    The Asia-Pacific is important and we are rebalancing toward 
it. If you go from 11 to 10 carriers you exacerbate that, what 
is already a very difficult problem, to the point where one of 
our tasks, a primary missions in the Defense Strategic 
Guidance, is to deter, and defeat if necessary, and the 
deterrence factor goes down dramatically when you have gaps. 
And it is a risk that we assume and I worry about.
    The Chairman. General Amos, the proposed Future Years 
Defense Program would reduce the Marine Corps to 175,000. What 
are the consequences of this reduced force structure in meeting 
your steady state rotational and major contingency operation 
requirements?
    General Amos. Chairman, the Marine Corps, just a couple 
attributes to that 175K [175,000] force. First it is one I 
would describe as a moderate risk force, moderate risk in that, 
that force would be made up of 21 Marine infantry battalions 
which is the centerpiece around which everything else is built 
in the United States Marine Corps. The numbers of squadrons and 
everything else are all a function of the number of battalions.
    The large-scale contingency operation that might be 
required of our Nation, the pacing of that size operation would 
require about 20 Marine infantry battalions. So what this means 
is your Marine Corps would be all in. And we built it so the 
Marine Corps' readiness would be up, they would be fully 
manned, fully trained, fully equipped as you talked about in 
your statement, but we would be all in. And just like World War 
II and Korea, we would come home when the war is over.
    So there is risk involved with that because there is other 
places around the world where things might well be happening 
and that will require a presence of marines. This is going to 
require a Presidential recall of our Reserves, 39,600 marines, 
and they would provide the shock absorber that would provide 
not only combat replacements for that 175K force, those 20 
infantry battalions, but they would also provide the ability to 
do limited operations elsewhere around the world.
    So there is a combat power buildup. There is a sense of the 
units that remain back home will be less ready, even though we 
are going very hard to keep them ready. So it will be longer 
for them to get there. And eventually when you start running 
out of marines in a major theater war, you are going to go from 
boot camp to battlefield. So there is moderate risk in that 
force, sir.
    The Chairman. There has been a lot of talk with this budget 
that we received from the President about assuming additional 
risk. I think it is important for the American people to 
understand what we are talking about in additional risk is 
lives. And that is a big concern, because as I said earlier, it 
invites aggression and then we have to go to war, and that has 
been our history for many, many years now. I would like to see 
us avoid that.
    We always draw down after the war, but we are still at war 
and we are drawing down. So we not only don't have a peace 
dividend, we are drawing down while we have troops still 
serving, risking their lives every day. So you have been dealt 
a very hard hand. I commend you for the job you are doing. I 
wish it weren't so. Not the job you are doing, I wish you 
didn't have the hand that you are playing.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just continuing, first of all I want to recognize General 
Amos' service as well in his last posture hearing, and it has 
been great working with you. You and your office have been 
terrific to me and my office, kept us informed, and you 
certainly do a great job for the men and women who serve under 
you. So we appreciate your service and hope you enjoy your 
retirement when it comes.
    You mentioned 175,000 marines. What does that look like if 
we get the full 8 years of sequestration that are currently on 
the books? How large of a Marine Corps could you maintain in 
that scenario?
    General Amos. Congressman, that is 175. When we built that 
force, we started just before, almost a year ago to today, and 
we actually looked forward expecting sequestration would be 
signed in March of this past year. And so that force of 175,000 
with 21 infantry battalions and the appropriate rest of the 
combat support, combat service support, is a fully sequestered 
force. So that force will maintain itself out into the future.
    Where we begin to run into trouble, because I moved to 
maintain near-term readiness now of those deployed units and 
the ones that are about to deploy, and trying to keep the 
readiness of the deployable units up, I have reached into other 
accounts in O&M [Operations and Maintenance] within my 
authorities and pulled money out, facilities sustainment, 
restoration and modernization, range modernization. I canceled 
17 programs. So I pulled out and pulled that money in to 
maintain the readiness.
    I will be able to do that for another probably 2 years, but 
the 36th Commandant will reach a point probably 2 years from 
now where he is going to have to take a look at that readiness 
level and say I am going to have to lower that so that I can 
get back into these facilities that I can't ignore, my training 
ranges that I can't ignore, and the modernization that I am 
going to have to do eventually. Otherwise we will end up with 
an old Marine Corps that is out of date.
    Mr. Smith. So the same size force, but it would be less 
ready, less prepared to fight.
    General Amos. Sir, it will be less ready in about 2017 and 
beyond.
    Mr. Smith. Okay.
    Admiral Greenert, you mentioned the COCOM [combatant 
command] requests for ships and if they were all met there 
would be a 450-ship Navy. Our requirements I think, put the 
Navy at this point at around 300, I forget what the exact 
number is for the requirements at this time.
    Admiral Greenert. 306, sir.
    Mr. Smith. 306.
    Admiral Greenert. 306.
    Mr. Smith. So can you perhaps explain for the committee's 
benefit the difference between requirements and COCOM requests? 
I mean, as my 10-year-old son says, it never hurts to ask. So 
you know, the COCOMs do make a lot of those requests. But 
obviously there is a difference between that and requirements. 
Could you explain that difference a little bit?
    Admiral Greenert. Yes, sir. Again, as you alluded, the 
combatant commanders, first of all they have a tasking given by 
the Department, it is called a global employment of the force, 
and it tells them what they are supposed to accomplish in their 
theater of operations. It is fairly--it is broad enough for 
them to determine that. They boil that down to presence, 
theater security cooperation and security, and they deliver to 
the Department of Defense through the services here is what I 
need from you.
    We take those down to the Joint Staff and we work through 
it, well, here is what we have. Here is the need in the world I 
live in. Here is the Navy I have. Here is the request. And we 
reconcile it. We adjudicate it. That adjudication is done at 
the Joint Staff, signed by the Secretary of Defense. We 
distribute the forces in a document called the Global Force 
Management Allocation Plan. We allocate the forces globally. 
So, simply put, that is the process that we use, and that is my 
demand signal for the year.
    Mr. Smith. But how reflective do you think it is that the 
amount of requests that come in from the combatant commanders, 
like they are making all these requests and we are not meeting 
them. How big of a problem is that? How do you sort of balance 
what is sort of what would be nice to have versus need to have 
based on a COCOM request?
    Admiral Greenert. Well, you have to look at what is it for, 
to your point, I think. What is the Department's priorities? Is 
this for warfighting? Is this for theater security cooperation? 
Is it an exercise? What is the deal on that? And that is 
reconciled. This takes a year, Mr. Smith.
    And so, we grind through all of that. It is supposed to be 
a request of capability. So if you say, well, I need this ship, 
and as Jim Amos and I work on it, you say you need an 
amphibious ship. Well, I got an idea. How about this support 
ship that we think can do the same thing? This sort of 
brokering goes on----
    Mr. Smith. Right.
    Admiral Greenert [continuing]. Through the year.
    Mr. Smith. Okay.
    Secretary Mabus, a couple of issues. You mentioned you are 
building up to get to a 300-ship Navy. Number one, what year 
would that be projected to happen. Number two, if sequestration 
kicks in as planned, what does that do to that plan? What 
number do you wind up with?
    Secretary Mabus. We would get to a 300-ship Navy by the end 
of this decade under the current plan and would keep it going 
forward. The effect of sequestration is on the back of the 
CNO's chartlet here. We would be unable to procure--well, the 
carrier would certainly be at issue, three destroyers, one 
submarine, four support ships and one forward staging base that 
we are currently planning to build----
    Mr. Smith. Okay.
    Secretary Mabus. We could not build at those levels. Now, 
one of the perverse things that happens with sequestration is 
that as we take ships out, things like destroyers or 
submarines, we are taking them out of multiyear contracts and 
so we are breaking multiyear contracts which raises the cost of 
the individual ships so we get fewer and they cost more.
    Mr. Smith. Okay. Thank you very much. Thank you, gentlemen. 
I yield back.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I yield my time to the 
gentleman from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Vice Chairman Thornberry, Secretary 
Mabus, Admiral Greenert, and General Amos. It is always a 
pleasure to see you all and thank you for your service to our 
country.
    Gentlemen, I know you have all had the opportunity to visit 
south Mississippi and see firsthand the world-class warships 
that are built right in my district. I know we all have a 
healthy respect for the capabilities these ships bring to our 
men and women serving in the U.S. Navy and the Marine Corps. I 
believe many of you would agree that the world is not getting 
safer but is becoming more dangerous and that we need more 
ships, not less ships. So with that let's jump right in.
    General Amos, do you support the requirement for a 12th 
ship of the LPD-17 class and would you please explain the 
capability that vessel would add to the Marine Corps mission?
    General Amos. Congressman, the capabilities are 
significant. That is a wonderful ship. Admiral Greenert and I 
just commissioned the USS Somerset, LPD-25, just about 2 weeks 
ago in Philadelphia. So it is a wonderful ship and it is being 
built with a very high degree of quality.
    I would love to have the 12th ship. We would love to have 
the 12th ship. Quite frankly, there is little to no money in 
the budget to be able to do this, which goes back to my 
original statement, my opening statement on we need capital 
ships. The Navy needs that. But there is no money, Congressman, 
to do this, to buy this 12th ship.
    The 12th ship, if money was allocated, would allow us some 
decision space as we look towards just exactly what is going to 
replace those LSDs [landing ship, dock], those 12 LSD 41-49-
class ships that we have which are nearing the ends of their 
service life. So would we love it? Yes, we absolutely would, 
but there is no money in the budget to pay for it.
    Mr. Palazzo. So the Marines clearly want and need a 12th 
LPD [landing platform/dock] and the LPD maintains the critical 
industrial base hot for rolling right into procuring the next 
amphibious ships based on the LPD hull form.
    And experience in shipbuilding has shown that new programs 
are always more expensive than desired and always take more 
time than planned, and I think it is vital that we support 
maintaining the current program that is building these ships 
and receiving excellent marks from the operational commanders 
and delivering a vital capability to our Marine Corps.
    And so, General Amos, you mentioned the LSD ships and that 
we are thinking about constructing them based on the existing 
LPD-17-class hull form. Can you elaborate on that and why that 
is important?
    General Amos. Congressman, there is what we call an 
analysis of alternatives which is underway right now. The CNO 
Jon Greenert, Admiral Greenert commissioned that some time ago. 
And they are looking for all the different possibilities. We do 
this for everything. We do this for vehicles, we do this for 
airplanes. So we examine what are the art of the possible 
things that might be out there, some of which may be 
commercial-off-the-shelf, some of which may be developmental. 
But so, what is it that is out there that could fit the needs 
of the requirement, meet the needs. And that is what we are 
doing right now.
    So that has not been complete yet. There is seven or eight 
variables out there that are potential solution sets to the LSD 
and we are looking at that right now, Congressman.
    Mr. Palazzo. Admiral Greenert, do you have anything to add 
to the questions that I have proposed to the general?
    Admiral Greenert. Well, sir, there is requirement and we 
have a requirement for 38 amphibious ships for joint forcible 
entry. I stand behind it. The Marine Corps has established it, 
we established it together. Thirty-three we say we should 
endeavor for as an affordable solution, 33 gray hull amphibious 
ships.
    But today, in the world that we live in, the world that the 
Navy and Marine Corps lives in and the future, we probably need 
50. If we want to do everything that we are asked to do, and it 
is not just the COCOMs ask, it is we look out around the world, 
we could probably use 50 amphibious ships. But we don't have 
that. So there is a requirement; there is want, I want the 
ship; and then there is the reality that I have. So if we were 
to take the shipbuilding plan and do this, sir, I would on 
balance, what I have with the resources of the Navy.
    Now, if I may be so bold, in the past we have taken, as Jim 
said, we are building an amphibious ship to replace the LSD and 
we want to get that thing going and we want that thing to be 
affordable. So if there is a feasibility of taking seed money 
and looking at what can we do to help the industry, to help 
designers, we have done this with the Virginia class and it got 
us down--it saved us $200 million per copy we estimate on the 
Virginia class. If there is a way to do something like that, I 
think that is feasible. So you didn't ask for that, but thank 
you, sir.
    Mr. Palazzo. Well, thank you, and thank you for your 
testimony. And General Amos, you are going to be sorely missed.
    And, I yield back.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman, and thanks to each 
of you gentlemen for your service to our country.
    Secretary Mabus and Admiral Greenert, we were talking 
earlier about the desire to reach 300 ships by the end of the 
decade. Do you think the current mix of ships is correct, 
especially with the truncation of the LCS program and how that 
impacts the fleet design? I know on the handout here you 
actually say in parenthesis ``Mix matters. Insufficient small 
surface combatants.''
    How does this concern about the number of ships affect what 
you think the mix should be among the ships we do have or will 
be able to have by the end of the decade?
    Secretary Mabus. Congressman, you are absolutely correct. 
It has got to be the right mix of ships and not just sheer 
numbers.
    But first I think we need to be very precise on the LCS. 
What the Secretary of Defense has said is that we need the 
small surface combatants, that we need to grow the fleet, that 
we need what has been noted that we need, 52 of the small 
surface combatants.
    What he has tasked me and Navy to do is to take a look at 
the LCS program and at the requirements, what should a ship 
like this do, how survivable should it be, what sort of 
armament should it have, this sort of thing, and report back in 
time for the 2016 budget. And all we have been told to do is to 
not engage in contract negotiations past 32 ships. We only have 
24 under contract now, so we will continue to build the LCS.
    One of the things that he called out very specifically that 
we should look at, one is continue to build the LCS; two is 
build a modified LCS; and three is build a different design 
ship. He also tasked me as part of that look how much would any 
of these alternatives cost and how long would it take to get to 
the fleet because we do need these ships very quickly.
    And so, this look at the requirements, at what the ship is 
meant to do, does it meet the requirements, is what we have 
done on every single type of ship that the Navy has built. We 
are about to start in fiscal year 2016 the fourth flight of the 
DDG-51 [guided missile destroyer]. We are going to start fairly 
soon after that with the fourth flight of the Virginia-class 
submarine. So requirements change. Technology improves and we 
change. And so, that is what I have been directed to do, that 
is what we are doing at Navy on the LCS.
    So in terms of numbers of ships and in terms of mix of 
ships, the Secretary of Defense has said that we need to have 
these small surface combatants, and what we are doing now is 
what is the best way to meet that need, and continuing to build 
the LCS or a modified LCS is certainly an option pending the 
results of this review.
    Mr. McIntyre. Thank you.
    Admiral, let me ask you this, because my time is running 
out.
    Thank you, Mr. Secretary, for that answer, and that was 
very helpful.
    Would you please discuss with us the risk and cost savings 
associated with any further slippage that might occur in the 
Ohio-class replacement submarine? I know there is a question 
about whether the Navy can fulfill STRATCOM's [U.S. Strategic 
Command] continuous at-sea deterrence requirements in future 
years. Can that be done at the current schedule, and if these 
replacement submarines are further delayed, what can you share 
with us about meeting that concern with STRATCOM----
    Admiral Greenert. Yes, sir. First of all, thanks for all 
that you have done for your Navy. I understand you are getting 
near some of your last hearings as well, sir.
    Mr. McIntyre. Thank you, sir.
    Admiral Greenert. It has been great working with you. To 
the point, your question. The Ohio-class submarine today has 
already had its life extended. They are on a retirement track 
that, by the way, we still need to be sure they can technically 
support the retirement track they are on. So, the Ohio 
replacement, which we have already moved 2 years to the right, 
number one, it is aligned with our ally, the U.K., so we are 
building this thing in commensurate with them building their 
submarine. The missile compartment is common. But number two, 
we have to get the first Ohio replacement in construction by 
2021, so that it is complete by 2029 and ready to go on patrol.
    So we have quite a bit of tight schedule there, and so my 
point would be, there is no slack in here. And the mission is 
sea-based nuclear--excuse me--strategic deterrence, and for us, 
that is number one. It is a national mission, and we have to 
fulfill it, sir.
    Mr. McIntyre. All right. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much, and yes, I 
would be the first to agree that the budgets are critical to a 
strong military, but I also would like to say that integrity in 
each of the services is also critical to a strong military.
    That brings me to this. General Amos, I have become friends 
with Major James Weirick, United States Marine Corps, who I 
believe, sincerely believe, is a man of integrity. That brings 
me to four questions that I do not think you will have time to 
answer today that I would ask the chairman and ask that these 
answers be written and submitted back to the committee so that 
each member of the committee can analyze the responses.
    The first question would be, who brought to your attention 
the email Major Weirick sent to Peter Delorier on the 21st of 
September of 2013? The second question would be, who decided to 
issue the protective order taken out against Major Weirick? And 
since you were named in the protective order, did you fear 
Major Weirick at any point? That would be another question.
    Your job is to stand up for your marines. That said, was 
your civilian attorney, Robert Hogue, ever reprimanded for his 
slanderous comments comparing Major Weirick to the Navy Yard 
shooter? Mr. Hogue made these comments in the press both before 
and after Major Weirick had been found by a Navy behavioral 
health provider as fit for duty and posing no threat. And Mr. 
Hogue made those comments about an outstanding Marine officer. 
I want to know, again, in writing, did you reprimand him, 
because I did not see it in the press.
    In a February the 17th interview with NPR [National Public 
Radio], you stated, and I quote, ``I have never ever said that 
I wanted them crushed and kicked out,'' talking about the 
marines in the urination case.
    When speaking about the marines involved with this video, 
however, General Waldhauser gave sworn testimony that you did 
in fact say that you wanted them crushed. I am asking you 
today, and you can put it in the writing, are you saying that 
General Waldhauser lied under oath?
    The fourth question that, again, I look forward to your 
written responses, during the same NPR interview, you stated, 
certainly, none of them have been crushed or thrown out of the 
Marine Corps.
    General Amos, how many of them were not allowed to continue 
to serve in the corps? My information says that the number is 
seven out of nine marines. Would you please verify that what 
you said in the NPR article interview was that none had been 
crushed.
    Then, lastly, ``Tarnished Brass,'' a 27 February 2014 
article in Foreign Policy Magazine, poses this question. And 
sir, I would rather not be reading this, but it has been put 
into print, and it all goes back to Captain James Clement and 
to Major James Weirick. The article says, and I quote, ``The 
top Marine Corps general is''--under--``is unpopular with his 
troops, damaged on Capitol Hill, and under investigation in the 
Pentagon. Can he really still lead?'' This, again, I would ask 
you to submit in writing to the committee.
    Sir, when I look at what has happened both in the James 
Clement situation and having talked to Major Weirick on 
numerous occasions over the past 5 months, it is disappointing 
that the integrity of this marine, and I would include Captain 
James Clement as well, have had to take the attacks that have 
come out of the office, whether it is you or people around you, 
that they have done everything they could to destroy two--the 
integrity of two marines.
    And Mr. Chairman, with that--I have got 43 seconds left--I 
would ask that these questions that I have asked publicly here 
in the committee today, that with your help, sir, and the 
ranking member's help, that we get a response back, if 
possible, within the next 6 weeks to these questions because, 
in my humble opinion, it is important. I have heard from too 
many marines, sir, both Active Duty and retired, that they are 
concerned about the integrity of the United States Marine 
Corps, so, sir, I ask you please to put in written form answers 
to these questions.
    And I yield back the balance of my time. Thank you, sir.
    The Chairman. General, do you want to take any time now to 
respond, or would you prefer to do it in writing?
    General Amos. I will do it in writing.
    [The information referred to can be found in the Appendix 
on page 153.]
    The Chairman. Thank you very much.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And to all of you, thank you so much for being here, for 
your extraordinary service.
    And General Amos, best of wishes to you as you move on, not 
quite yet, but in the future.
    We had a hearing last week with Secretary Hagel and General 
Dempsey looking at the QDR but also how trying to face some 
really tough decisions that you obviously are very aware that 
we have, whether it is readiness and how we move forward with 
personnel issues and a host of other ones, and I wonder if you 
could share was, of the decisions that are coming forward and 
where you think we are today and the likelihood of the 
committee pushing back on some of the tough decisions that you 
have ahead, where do you see that, those key issues that you 
want to be sure that we take a very hard look at and not 
necessarily respond in what we think would be the better 
situation for our constituents, for our communities? Is there 
an area that you choose to point out that you see as a problem 
area?
    Admiral Greenert.
    Admiral Greenert. Ma'am, I would request we look very 
closely and weigh all the options and read closely our 
intentions on compensation reform. It is fairly comprehensive, 
extensive; it is just not one issue. I don't think it is a one-
issue topic. And I think it is our sense that under the 
circumstances that we are in fiscally, the longstanding good 
support and good will of this Congress for our military and 
those members, and in the world I live in, the other things 
that they need, any money coming from compensation reform to 
the Navy--and Secretary Mabus supports me in this--is going 
right back to things that support our sailors: their quality of 
life and their quality of work, barracks, peers training, 
manning, all of these things, these are the things that they 
tell us, they tell myself and my senior enlisted that this is 
what, the things that bug them that could make their career 
better, that we do a balance of that and to think through that 
and not pick the thing apart.
    It is my opinion that we have an opportunity here to sort 
of address and do this debate in this sort of node, if you 
will, or knee in the curb, however you want to look at it, 
inflection point of our service and of our budget.
    Thank you, ma'am.
    Mrs. Davis. Secretary Mabus, I wasn't sure if you wanted to 
respond.
    Secretary Mabus. I would echo exactly what the CNO said.
    But I would also say, to go back to what the unique 
characteristic that the Navy and Marine Corps give this 
country, and that is presence, the ability to be forward 
deployed, the ability to have the right number and the right 
mix of ships forward, the ability to maintain those ships, the 
ability to have trained crews on those ships, and so keeping 
that presence and also taking a little history in mind that the 
Navy got significantly smaller in the last decade and that we 
are beginning to come up now to meet this new maritime 
strategy. So that presence that gives our Nation options, we--
CNO, Commandant, and I--are working very hard to protect that 
presence, but not just presence but presence with the right 
kinds of ships, presence with the trained people, sailors and 
marines, on those ships, to give those options to this country.
    Mrs. Davis. Yeah. So that is also keeping faith with our 
promise to our sailors and to their families as well, that that 
balance is correct, and I think that is going to be the tough 
decisions, one of them, that we face. I think the other one, 
certainly for the services, all of them, but I am wondering 
about the Navy and the Marines in terms of BRAC [Base 
Realignment and Closure] and whether you think there is excess 
capacity that we can be looking at.
    I guess one other question I would like to ask is just 
about how we are dealing with toxic leadership, which I know 
has been of great concern to all of you, and whether the 
training, the ability to go back and sort of reassess where we 
are in that area to keep the integrity of the services also, 
very clear.
    Secretary Mabus. I would like to comment very briefly on 
that. We, uniquely, in terms of leadership, when we relieve 
somebody, we announce it. We announce why we are doing it, and 
it is one of the things that we focus on. The Commandant has 
talked about the reawakening efforts that he is making and a 
lot of the other efforts that he is making and has made across 
the Marine Corps. CNO, likewise.
    I was at the Naval War College in Newport and made a talk 
to those students and to about 700 of our officers about 
ethics, but having said all that, no ethics classes in the 
world, if you don't know it is wrong to steal, if you don't 
know it is wrong to take a bribe, if you don't know it is wrong 
to cheat, you missed something from your mother. And what we 
can do is set up systems to make sure that we catch you, that 
we hold people accountable, and I think that we have done a 
pretty good job in that. And again, when we find somebody that 
has not met those high standards, we are public about it when 
we relieve them.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    General Amos, I wish there was more we could offer you than 
thank you, but we offer that to you. You have done a great job. 
You have shown courage, not just on the battlefield but on the 
political field. You have always fought for your Marine Corps 
and your marines, and we owe you a debt of gratitude. Thank you 
so much for that service.
    Admiral, Mr. Secretary, I have just enormous personal 
respect for both of you. I know you love your Navy. I know you 
are fighting for your Navy. I believe that some of the 
decisions we are arguing about today were not your decisions. I 
am not going to ask you to comment on that, but I will ask you 
this, please don't take my criticisms to the two of you. They 
are to the people who ultimately made these decisions.
    As we look, we hear a lot about these cuts, and one of the 
things that we don't talk about is the fact that there was $778 
billion of cuts that took place long before sequestration 
reared its ugly head. I asked last week for Secretary Hagel to 
present us with a single time that the administration appeared 
before this committee or communicated to us and said those $778 
billion were too much. So far I am holding in my hand all those 
responses. It is all I expect to get.
    The second thing is I heard this discussion about our 
combatant commanders, kind of suggesting that maybe these guys 
just came in with these wish lists. We have had seven combatant 
commanders testify before this committee. Their testimony is 
what we use for our posture hearings, what we use to base this 
budget on. They are our gold standard. I asked Admiral 
Locklear, do you fluff these requirements, or are they the 
requirements we had? He said, I can assure you they are not 
fluffed; they are what we need.
    Mr. Secretary, one of the things that frightens me are the 
facts that in 2007, before this administration came into 
office, the reality is we met 90 percent of the combatant 
commanders' requirements. This year, we will only meet 43 
percent. And what is our response? Not more ships but paper 
ships. When we talk about a 30-year shipbuilding plan, one of 
the things we ignore is this: We will build half the ships 
today that that 30-year shipbuilding plan had in it 10 years 
ago. Next year, we will build half the ships that the 30-year 
plan had in it 10 years ago. And even if we took the 
shipbuilding plan, there is a $6 billion deficit per year in 
getting to the number of ships that we need in there, and they 
are just paper ships.
    The second thing, Mr. Secretary, I look at is this. You 
have issued, and you were kind enough to notify us, we are 
going to change the counting rules of how we count the ships. I 
don't know if this has gone into effect. I don't know when it 
goes into effect, but here is the fact: 60 seconds before this 
new rule goes into effect, the Navy will have officially 283 
ships. The moment it goes into effect, 60 seconds later, we 
will have 293 ships. They are paper ships. Not one of those 
things in that shipbuilding plan or this change in counting 
help meet a single one of those requirements for our combatant 
commanders.
    And then the chairman asked about the carrier, and there is 
a huge disconnect between the rhetoric we are hearing and the 
actions that are being taken. We say we are not going to reduce 
our carriers down from 11 to 10, but the reality is this: $243 
million this committee put in to do the planning for a year to 
get ready for that refueling; we are taking it out. If you 
wanted to reduce our carriers from 11 to 10, you would take it 
out. If you wanted to leave them in and to delay the decision, 
you would leave the money in. Four hundred fifty million 
dollars of materials that we need to buy for next year to get 
ready, that is not even in the President's budget. It is taken 
out. If you wanted to keep 11 carriers, we would leave it in. 
If you wanted to take them out, you would take that money out.
    And then in the FYDP [Future Years Defense Program], we 
have removed the carrier from the FYDP. It was in last year's 
FYDP. It is not in this year's. So, reality, Mr. Secretary, 
what we are really doing is we have made the decision to go 
back from 11 to 10. We are just waiting until maybe after 
November or something to announce it, but you have taken all 
the steps with the actions to take it out.
    Here are my two quick questions for you. One is this: Why 
didn't the President, if he was going to keep 11 carriers, 
include that in the budget that he submitted, which is $115 
billion above the sequestration numbers in the Budget Control 
Act? And then the second thing is, do you have any historical 
data that suggests if we make that decision next year and put 
all that money back in, that you could possibly meet the 
timelines that would be required after you have lost 2 years to 
make sure we don't go down from 11 to 10 carriers?
    Secretary Mabus. Yes, sir. The decision that we brought 
forward on the carrier was to move--was to give us another 
year's decision space. And one of things we looked at very 
closely, because we are heel-to-toe in these carriers, is, can 
we meet the timelines? If the decision is made next year, in 
fiscal year 2016, we have exactly the amount of time, the 
correct amount of time, to get the George Washington out and to 
put the next carrier in with the materials, with the supplies, 
with everything. So that was one of the things we looked at 
very carefully before we made the decision to defer this for 1 
year. And we have been given guidance to prepare, as we are 
looking at the fiscal year 2016 budget, to prepare with the 
carrier in that budget. That is at least the initial guidance.
    Mr. Forbes. Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I have a series of 
questions first for General Amos on the dwell time question and 
the numbers in the Marine Corps. As I understand it, your 
desired number is one 185.5, and the number you are getting is 
175. Is that about right?
    General Amos. Congressman, the number that our Nation needs 
its Marines Corps to be is 186.8.
    Mr. Larsen. 186.8.
    General Amos. And that will be a roughly a 1:3--in fact, it 
will be a 1:3 dwell.
    Mr. Larsen. Yeah. So, the question--so, that is about--the 
175 is about a 6.2 percent decrease from 186.8, but the dwell 
time though then drops from 1:3 to 1:2, which is about a 33 
percent decrease in dwell time. Can you briefly explain to me 
that jump?
    General Amos. Yes, sir. It is capacity. It is simply the 
numbers of battalions and units we have to do what we call 
steady state operations, and that is those units that are 
forward deployed in the Pacific. They are rotating units. Those 
are those units that are aboard ship on Marine Expeditionary 
Units, Amphibious Ready Groups. Those are the units that are in 
Afghanistan. Those are the units--although they will be coming 
out; that should take care of itself here soon. It is those 
marines that are in the Special Purpose MAGTF, Marine Air-
Ground Task Force, that is in Moron right now.
    So those steady state requirements drive us at a 175K force 
to a dwell of 1:2. If we go to combat, it is 1:0. It is, you 
just go and you come back, so that is what it is. In a 186K 
force, we have enough elasticity and capacity where we can go 
on a deployment for 6 months and then come home for 18 months, 
and then go for 6 months and come home for 18 months. It is 
just a function of capacity, Congressman.
    Mr. Larsen. Yeah. I think I understand it better. Thanks.
    Admiral Greenert, I might have missed it, although I was 
here, but you mentioned that the sequestration would lead to a 
high risk to specific missions, and I didn't quite--then you 
jumped to another part of your testimony. You might have jumped 
back to what those specific missions were that were going to be 
subject to high risk.
    I have a question for Secretary Mabus, so don't take the 
3.18 to answer this.
    Admiral Greenert. Yeah, I understand. Thank you, sir.
    Deter and defeat aggression, that is the--with the 
retirement of the carrier, the deterrence force, that means 
presence. What do I have presence? What do I need to deter? And 
in defeat, one--conduct one, one MCO [major combat operation], 
if you will, for that, so that was the first mission.
    The second one is project power in an anti-access area of 
denial, and that is keeping--if we don't keep pace with the 
high-technology capabilities we are bringing in, and we have to 
face a high-technology adversary--of an advanced adversary, 
then that risk continues to grow as we go through the FYDP.
    Mr. Larsen. Those are the two main ones. Yeah. Thanks.
    And Secretary Mabus, we know that over the last couple of 
weeks, because the NATO [North Atlantic Treaty Organization] 
mission in the Baltics has shifted to us for this quarter, we 
have increased the number of airplanes there by four, I think 
four additional F-16s to do air patrols on the Air Force side. 
I was curious if over the last several weeks, if the U.S. Navy, 
as part of its NATO mission or as part of a U.S. mission, has 
been asked to increase or maintain any presence in the 
Mediterranean or near the Black Sea to assure allies in the 
region.
    Secretary Mabus. One of the things that we endeavor to do 
is to have that presence there all the time, not just at the 
right place at the right time, but the right place all the 
time. And I think that this is one of those examples of where 
we do have the right presence at the--all the time, whether--
regardless of the region.
    Mr. Larsen. Yeah. Is there anything specifically that you 
can point out?
    Secretary Mabus. We have a DDG in the Black Sea now, a 
long-planned exercise that we have--that we do every year. The 
Marines have a force called the Black Sea Rotational Force that 
we go in, exercise with our allies, with our friends, with our 
NATO members there, and we are continuing to do that, forward 
deployed all the time now, as we have in the past.
    Mr. Larsen. All right. Thank you.
    And then, with the time I have left, I will yield back, but 
just momentarily just to put in a plug: I appreciate the Navy 
and Marine Corps' investment in electronic warfare. Obviously, 
it is close to home, but just while it has fallen upon U.S. 
Navy to provide the air attack capability for electronic 
warfare, so that continued investment on the electronic warfare 
side to go along with platforms is pretty key and it is 
something we will be exploring with the other services as well. 
So I appreciate that and yield back. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And I would like to thank each of you for being here today, 
particularly General Amos. We appreciate your association with 
South Carolina. I am very grateful that I represented Parris 
Island, and I saw firsthand your success in training young 
marines and giving opportunity. I am also grateful that my late 
father-in-law and late brother-in-law were proud marines, so we 
associate with you and wish you well in the future.
    And Admiral Greenert, I am very grateful I have a son under 
your command, so it is personal. We are very proud of his 
service.
    And Admiral, what is the status of the Navy contribution to 
the National Mission Forces, Combat Mission Forces and Cyber 
Protection Forces of the U.S. Cyber Command, which is to be 
located at Fort Gordon, Georgia?
    Admiral Greenert. We were tasked, and it started in fiscal 
year 2012 actually, to stand up a series of task force. And 
what these are, these are groups of around 40 cyber warriors 
who have specific skills to enter networks, if you will, to be 
able to rummage around to look for the right stuff, and as 
necessary, I will just say, provide effects, and we are stood 
up. We are on track. In fact, we are ahead of track to stand up 
those, I think all told, 16 teams, and we provide those around 
the world to combatant commanders.
    Mr. Wilson. And I have visited the facility, and you would 
be proud to see in the midst of an Army complex, Navy personnel 
looking very ``strack.''
    Admiral Greenert. Yes, sir, including civilians. This is 
very joint and interagency.
    Mr. Wilson. And so important for the security of our 
country.
    Secretary Mabus and General Amos, I am very concerned about 
the unintended consequences of the decision to raise the 
minimum wage for Federal contractors. This has an extraordinary 
potential to destroy jobs, totally unintended, and these--it is 
quality of life. And as chairman of Military Personnel, it 
concerns me, and that is that employees of chain restaurants on 
military installations--it could be Subway, Taco Bell, Burger 
King--that they could be subject to this regulation, which 
would make the businesses nonprofitable. They would close. 
People would lose their jobs. And the services provided for 
quality of life could be eliminated. I hope that you are 
looking into this so that this can be avoided.
    Additionally, we have other services, such as barbershops, 
that won't be able to provide the services that are necessary. 
Additionally, another benefit that has been so positive for 
military families are little kiosks, where you have small tiny 
businesses where persons operate, and this is perfect for 
military dependents and spouses. All of these are at risk.
    And Secretary, are you aware of this, and what is being 
done?
    Secretary Mabus. Congressman, the benefits that you have 
laid out, the quality of life, we are very aware of this, and 
we are very cognizant that these things remain for marines, for 
sailors, for their families.
    However, as you know, there is very conflicting and 
imperfect evidence as to which way this goes, and so we will 
continue to watch it, but in terms of making sure that the 
quality of life for everyone, our sailors, our marines, their 
families, and the people who work on those bases, we are going 
to keep an eye on that, and we will make whatever 
recommendations are appropriate.
    Mr. Wilson. And to me it is really very clear, and that is, 
where you have a wage differential on-post/off-post, and then 
you have to raise prices on-post, I know something about our 
military and their families; they are very bright. They will 
shop off-post, and it would be a spiral out of control, closing 
these businesses, destroying entry-level jobs. Additionally, it 
would create a circumstance where you would have a wage 
differential on-post/off-post, and it would be not sustainable. 
And so the way to address that is to close the on-post 
facilities, again affecting military families, and I just see 
this as just--and it couldn't possibly have been an intended 
consequence.
    The unintended consequences, really catastrophic to jobs 
and to quality of life for our military, and I hope you look 
into this right away. It is--because the contracts are going to 
be negotiated soon. There have already been some closures and 
planned closures at strategic locations around the world. Thank 
you very much.
    Secretary Mabus. Thank you.
    Mr. Wilson. I appreciate you all's service.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And welcome, Secretary Mabus.
    And General Greenert, I am always very proud to say our 
former commander, Naval Forces, Marianas and Guam.
    And General Amos, I do appreciate all your service and your 
continued commitment to the realignment of marines and to a 
robust Navy presence on Guam.
    And I think this year's budget does show a clear commitment 
on your part to our rebalance strategy.
    General Amos, can you comment on the progress that we have 
made in the last year regarding the realignment of marines from 
Okinawa to Guam. Can you comment on the significance of the 
Governor of Okinawa signing the landfill permit and how 
important is it to remove the restrictions on Government of 
Japan's funds in this year's defense authorization bill. What 
impact do those restrictions have on our partnership with 
Japan?
    General Amos. Congresswoman, first of all, we remain, as I 
said last year, bullish on this move to Guam. We are planning 
on it happening. We need it to happen to aid in our 
redistribution of the forces in the Pacific. We sit today at 
about a little over 22,000 marines west of the International 
Date Line. As you recall, Secretary Panetta's goal was 22.5. 
Now, they are not all in the right spot, though. We have got 
more on Okinawa than we need, and we will eventually go down to 
11,500 in accordance with an agreement between Japan and us; 
4,700 of those will--roughly 5,000 will go to Guam. We are 
still planning on that.
    Two construction projects are under way right now, the 
underground utilities that go out to the North Ramp of Andersen 
Air Force base, and there is a maintenance facility that is 
being built there. We have in 2015 a hangar to be built at the 
North Ramp. So those are all things that are unencumbered by 
the NDAA [National Defense Authorization Act] specific language 
on restrictions. So we are planning on doing this. As you know, 
the environmental--the supplemental environmental impact 
statement should be complete, scheduled to be complete towards 
the end of this year. That means by early 2015, next year, this 
time by next year, we should have a record of decision, and 
when that happens then, that then allows the--assuming that it 
goes the way we hope it goes, that allows then the planning for 
the construction of the training ranges and the living 
cantonment and the building cantonment and our headquarters. 
So, we are actually doing well.
    There is money in the budget all the way out till 2020 and 
beyond to do this, but you are absolutely right. The NDAA is 
pretty strident with regards to not spending money until we 
have a comprehensive plan for Okinawa, Guam, the realignment in 
the Pacific and Hawaii, so we are going to need some help to 
try to break free some of that, those restrictions with 
Congress, to allow us to spend some of the money that is 
already in our budget and that is in Japan's budget to be able 
to build the facilities we need on Guam in an iterative 
fashion.
    Ms. Bordallo. Thank you. And we will continue to work on 
that.
    The next question I have is for Admiral Greenert. At a 
hearing last week, Admiral Locklear indicated that it was very 
important for there to be a robust depot-level ship repair 
capability with a dry dock on Guam. Now, I think we can all 
agree with that assessment.
    Admiral, can you elaborate on why that specific capability 
is important to the Navy and our readiness overall in the 
Western Pacific. We have spent many, many years building up a 
specialized workforce on Guam, and I would hate to see that 
capability decline and for the MSC [Military Sealift Command] 
ships to be going to foreign countries for repair when we do 
have the capability on Guam.
    Admiral Greenert. Ma'am, Guam is very important to me, to 
Admiral Locklear, to Admiral Harris, our commander of the 
Pacific Fleet. It is strategic. I agree with Admiral Locklear's 
assessment. I want to and I will do what I can to move this 
ship repair contract, get going, get back up to speed. I am 
with you. We have got to get workers working. I don't want to 
go back, you know, all the way to the U.S. It is a long way 
back there to do ship repair, and I agree, we ought to have a 
dry dock facility there as soon as feasible. We have got to get 
old Big Blue up and certified or whatever it takes.
    Ms. Bordallo. Or to be sending these ships to foreign 
countries, Singapore and other areas.
    Admiral Greenert. Yes, ma'am.
    Ms. Bordallo. I think we should be repairing in a U.S. 
facility.
    Admiral Greenert. Yes, ma'am.
    Ms. Bordallo. Thank you very much.
    Thank you, gentlemen. And I yield back.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And gentleman, thank you for being here, and I sincerely 
appreciate each of your long distinguished careers and service 
to our country. We are a better country for all of your 
service.
    Secretary Mabus, I am sincere about that. You and I 
disagree on something of some import to me anyway, and so don't 
let that disagreement distract from my appreciation for your 
service.
    Two thousand nine, when you and the President launched this 
greening of the Navy effort, we had dramatically different 
circumstances than we have right now. In your written 
testimony, you are still committed to that, so I don't 
anticipate changing your mind with my eloquence, but I would 
like to point out that we are different. All three of you 
talked about how difficult the budget circumstances we find 
ourselves in, sequestration, cutting spending, top line 
budgets, numbers have been going down. All of that is different 
from 2009.
    On the supply side, the security side, dramatic increases 
of oil production during that timeframe, unanticipated, quite 
frankly, 2009, but that is now the reality that our domestic 
production is going up, and so, from a national security 
standpoint, pursuing fuels that might fit that gap if couldn't 
get at anything else might make some sense, but clearly, 
biofuels are not in that category.
    In your written testimony, you announced that you signed a 
contract with four different contractors to provide 160 million 
gallons per year of bio jet fuel at $4 a gallon, which is at or 
near the commercial cost. Can you tell us when that will be 
delivered, and can you tell us, does that amortize all of the 
investment that the Department of Defense, Ag [Agriculture] 
Department, and Energy Department have paid, and why do you 
think that effort will be any more successful than, say, 
Solyndra or any other efforts that the administration has made 
at juicing this market?
    Secretary Mabus. I appreciate the opportunity to talk to 
you about this, and you may--we may have more things in common 
than you think. The reason we are doing this is so that we 
won't have to cut ships. The reason we are doing this is so we 
won't have to cut training or steaming or flight hours. And I 
am really happy that oil and gas production has gone up in the 
United States, as virtually all Americans are, but even if we 
produce all the oil or the petroleum that we could possibly 
use--and the military would go to the front of the line no 
matter what.
    Mr. Conaway. Right.
    Secretary Mabus. Oil is a global commodity, and it is 
traded globally. We have been presented in Navy with $2 billion 
in unbudgeted, unanticipated fuel bills in fiscal year 2011, 
fiscal year 2012, the most recent complete numbers that we 
have. What we are looking for is some competition for 
petroleum. What we are looking for, to go along--you and I have 
the same notion. If you replace one thing with another, it has 
got to be a drop-in fuel, and it has got to be competitively 
priced. And as you pointed out, that 160 million gallons of 
both aviation and also marine diesel will come online in 2016. 
That moneys, those moneys and those gallons coming to the fleet 
will give us the ability to mitigate some of those price 
spikes.
    Mr. Conaway. Okay.
    Secretary Mabus. Some of that security premium that oil 
traders talk about. You don't have to look any further than the 
last couple of weeks when----
    Mr. Conaway. Just a second. Let me----
    Secretary Mabus [continuing]. Price of oil goes up.
    Mr. Conaway [continuing]. Cut you off with that, but I do 
want to get to one other point that we do agree on.
    You mentioned that for every dollar increase in the price 
of a gallon--of a barrel of oil, that it costs you $30 million. 
Would you provide the committee that computation for how that 
works?
    Secretary Mabus. Sure.
    [The information referred to can be found in the Appendix 
on page 153.]
    Mr. Conaway. And then the remaining time, General Amos, I 
need to get you on the hook for bragging on the Marine Corps 
for their audit that they recently got, and also, I would like 
a head nod from the other gentleman about continued commitment 
to getting the Department of Defense books in an auditable 
condition before 2017.
    And I hope, Secretary, I have your commitment to that as 
well as Admiral Greenert, but I would like for General Amos to 
talk about his Marine Corps efforts in that regard.
    General Amos. Congressman, thank you. It was painful, took 
longer than we hoped. It was actually a fiscal year 2012 audit 
that I just reported out, as you are aware, just here late this 
past fall, but we are the first service that have gone through 
it, so we were breaking trail, so to speak, on it. I am very 
proud of it. We are involved right now in the next year's 
audit, and so we are back into it again, but I am proud of the 
effort because it was--when you track--can you imagine trying 
to track every single dollar that goes from operations 
maintenance, training, ammunition procurement, so thanks, 
thanks for the kind words.
    You do have my word that now that we have done it once and 
we know it is possible, we are going to continue to do it 
because this actually gives us visibility inside the corps to 
be able to figure out where the money is going. And we are--and 
we can track it now. We have mechanisms that we track where our 
money is going and how it is being spent.
    So thank you, Congressman.
    Mr. Conaway. All right.
    Secretary, real quickly.
    Secretary Mabus. As a former State auditor, you and I sure 
agree on this, and number one, the Navy is on track to meet its 
audit requirements. And you and I can go back and forth in 
private on some of these technical things, but we are on track 
to do that. And the Marines, as marines do, are leading, as 
always.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today.
    General Amos, I just want to let you know that wounded 
warrior from Ellington, Connecticut, Corporal Caron, 
appreciated your good wishes when I saw you at the shipbuilding 
breakfast. And again, I want to thank you for your interest in 
his amazing recovery and your great career.
    And also, as similarly asserted by Mr. Conaway and the 
auditability reform committee, kudos to the Marines for getting 
us to that point. I mean, this is something that is a must now, 
obviously, with all the budget challenges that we are talking 
about. We have to see how the money is being spent, so 
congratulations on that great achievement.
    Secretary Mabus and Admiral Greenert, there is strong 
bipartisan support for getting a 300-ship Navy. Again, I want 
to just follow up some of the comments earlier that during your 
tenure, as your testimony points out, you have put 60 ships 
under contract. I have been around here long enough to know 
that we were not even close to that pace in the preceding 4 
years, and again, I think that is something people have to be 
mindful of. Your commitment to getting us there is based on 
real results. It is not a talking point for you. You are 
getting it done, and I think, you know, people need to remember 
that as we sort of discuss the challenges that face us.
    What I would like to spend a minute with you with is a 
question that came up with Secretary Hagel last week, and you 
started this discussion by saying that, again, all the reasons 
why we have to get SSBN [ballistic missile nuclear submarine] 
online on time is proceeding smartly, but the fact is, is that 
we are going to hit a point where we have got to start paying 
for building them, and the impact on that 300-ship Navy is 
going to be quite dramatic. And as you point out the other day, 
a national conversation really has to take place here. For 70 
percent of the triad, the Navy's budget can't be treated as a 
one-third commitment in terms of the security requirement. So, 
again, I was wondering how we get that to the next level so 
that we sort of move it out of the realm of just sort of pundit 
talk.
    Secretary Mabus. Well, first, thank you so much for what 
you said. We are on track with the Ohio-class replacement, as 
Admiral Greenert said. We are on track with the engineering, 
with the R&D [research and development] that is going on now. 
We are on track to do the advance procurement. We are on track 
to begin building, and we are on track in terms of the Common 
Missile Compartment with our British allies, but as you rightly 
pointed out, when we are building Ohio-class replacement 
submarines, it will take up at least a third every year of the 
Navy's normal shipbuilding budget. We are the most survivable 
part of the nuclear triad, of the nuclear deterrence, and it--
as I said and as you just said, there needs to be a decision, 
after a full debate and full conversation, on that shouldn't be 
the trade because it will have a dramatic and not good impact 
on all of our other shipbuilding programs, including our attack 
submarine programs, which is one of the places we have a very 
large technological tactical edge right now and into the 
future.
    So, I think that just making people aware of the start 
numbers of what will happen to the rest of the fleet if this 
entire shipbuilding for the Ohio-class replacement is taken out 
of normal Navy shipbuilding, number one, it is a national 
program, but number two, we also don't replace these things 
very often at all. They last for decades, and the ships that we 
are building now, the boats for the Ohio-class replacement, 
will last into the 2080s, and so we ought to view it through 
that lens, and we ought to have that conversation.
    Mr. Courtney. Admiral, did you want to----
    Admiral Greenert. Well, sir, the year of reckoning is 2021, 
it is right around the corner, and that is about a $9 billion 
to $10 billion--it is the procurement of the first boat. It is 
high, but they are always high in the first. That does a lot of 
R&D, as you well know. Two years go by where we don't procure 
as we build the first, and then we build one, and then it is 
every year, it is about $6 billion in those years' dollars. As 
the Secretary said, that is about a half and maybe just a 
little less than half of the budget. It will clobber the 
budget, and our priority, of course, is sea-based strategic 
deterrent, but it is also the undersea domain. That is right 
behind it. So where do we get the money? Submarines, 
destroyers, P-8s, they are all contributors to the undersea 
domain; so sir, we need relief is what we need from this 
burden.
    Mr. Courtney. In the defense bill this year, we can start 
working on some language to start really making this, again, 
more than just a talking point in the hallway. You know, if we 
care about a 300-ship Navy, we have got to deal with it.
    I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Greenert, General Amos, thank you 
again for joining us today and thank you for your service to 
our Nation.
    General Amos, thank you for 44 years of service to our 
Nation as a marine, and thanks so much for your leadership. You 
have led our marines through 13 years of conflict, and we 
appreciate that.
    Please thank Bonnie, too, for the great job she has done in 
supporting our marines and their families. Thank you. Thank 
you.
    I am going to begin, Admiral Greenert, with you to look at 
where we are, from a Navy perspective, concerning our L-class 
ships.
    And General Amos, I also want you to be part of this 
discussion.
    We are looking at the next generation replacing the LSD.
    General Amos, you spoke very eloquently and passionately 
about saying that the LPD 17 hull form is the way to go for a 
variety of reasons, and in answering Mr. Palazzo's question, 
you laid out a lot of those, but I do want to get your 
perspective on, from both you gentleman, about why you believe 
the LPD 17 hull form or that class of ships is the best way 
going forward to meet the Marine Corps' needs and to make sure, 
too, that we have a platform that is functional and is in the 
fleet in a timely manner.
    Admiral Greenert. Well, I will start, sir. If it is the 
most cost feasible for the capability, I am very sensitive. Jim 
Amos is my customer, so I have to understand that. We need to 
bring the Marines the capability they need. We already have the 
infrastructure in place to repair it, to maintain it, to train 
people to it, to buy stuff that goes in it, you know, from air 
conditioners to diesels, you name it, you know what I am 
saying, to weapons systems, so that would be very nice if that 
moved in there very eloquently and we could afford it.
    So I turn to, as I was kind of talking to Mr. Palazzo 
earlier, if we could get a transitional piece, you know, a seed 
money or something--we did this with the Virginia class--hey, 
that might work, and we have done it before. So, anyway, it is 
all of those that makes it--and you know what, that is a pretty 
successful class now.
    Secretary Mabus. And just to follow up just for 1 second.
    Mr. Wittman. Sure.
    Secretary Mabus. LPD 17, the first in that class had--as 
the first of the class, had some issues.
    Mr. Wittman. Right.
    Secretary Mabus. And it got a lot of press, a lot of press. 
Are we going down the right road? Are we doing the right thing 
here in the Navy? The last two LPDs, 24 and 25, have had no 
starred cards, no major defects during their sea trials.
    Mr. Wittman. Very good. Thank you, Secretary Mabus.
    General Amos.
    General Amos. Congressman, the hull form issue is simply 
simplifying the acquisition process and the developmental costs 
of any kind of platform. It just makes--you know, that is one 
that makes sense.
    Mr. Wittman. Sure.
    General Amos. Developing something brand new costs more 
money than we think, takes longer than we think, and it is 
fraught with more danger than we think. Doesn't mean we can't 
develop, doesn't mean we shouldn't, you know, but that is 
really the hull form of that class ship, which has been so, so 
successful at this point to the point of everybody else.
    And I am going to step a little bit out of my lane here, 
but I tell you what, the truth of the matter is, everything--
when you start talking United States Navy and capital 
investments, they cost a lot of money.
    Mr. Wittman. Yeah.
    General Amos. This is not like buying a Humvee for 
$250,000. This is buying a ship for $2.3 billion or buying an 
Ohio-class replacement submarine that is going to consume his 
entire--the bulk of his entire shipbuilding plan for when it 
finally comes in.
    The truth is, is that my personal opinion, we are out of 
balance in the budget.
    Mr. Wittman. Sure.
    General Amos. Not so much Congress but within our 
Department of Defense. The Department of the Navy in the Navy 
shipbuilding program needs more money. This is not a 
proportional solution set because the ships are expensive, and 
they are, they are capital investments, and by the way, they 
will last for 40-plus years.
    Mr. Wittman. Let me ask this. I want to lead right from 
your answer to a broader question. Where we are proposing to go 
with our Navy and as a component of that, our amphibious ships, 
look at the world we are in today, being more dangerous with 
more need to be able to project power to respond to 
humanitarian needs and the overall effort that this Nation 
needs to place, if we don't have a Navy that has those 11 
aircraft carriers, that has the next generation L class ship, 
that has the SSBN(X), two questions: Will our men and women 
that we ask to go in harm's way, will they be put at greater 
risk, i.e., will more of them be killed on the battlefield? And 
will there be an increased possibility that if we are in a 
conflict, that we would lose that conflict? And I would like 
each of you gentleman to answer that, and you can quickly do it 
yes or no.
    Admiral Greenert. I will answer the second one first. Yes, 
we have risk in our ability to take on an advanced adversary, 
as I spoke to, and I am concerned about that. But in your first 
question, my job is to make sure that our people that go 
forward have the finest equipment and they are organized, 
trained, and equipped, and so, for me, I would always come to 
Secretary Mabus and say, Boss, our budget has to have the right 
readiness. I cannot send forward--I will get smaller to be good 
and to make sure that they are good and that they are safe.
    Mr. Wittman. Secretary Mabus.
    Secretary Mabus. I will just echo what the CNO said. We are 
over time, but we will make sure that people that go in harm's 
way, and that is what we are trying to do with the budget, have 
the right equipment but also the right training, the right 
things they need all the across the board. We should never go 
into a fair fight.
    Mr. Wittman. Gotcha.
    General Amos. Congressman, the few of the ships--fewer 
numbers of ships, less capable they are, means the longer it 
takes to build up combat power when it is needed, not if it is 
needed but when it is needed. The longer it takes to build 
combat power puts our young men and women at risk. It is a 
complementary equation.
    Mr. Wittman. All right, sir.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service.
    I would--I want to talk a little bit about energy as well. 
Specifically, I have a question about specifically how it 
affects the rebalance. But the Navy has demonstrated its 
commitment to energy security and efficiency through goal 
setting in its program initiatives, that the stated strategy is 
to--is that energy security is critical to mission success and 
that energy efficiency minimizes operational risks while saving 
time, money, and lives, and I want to say I thank you for that.
    Specifically, at MCAS [Marine Corps Air Station] Miramar, I 
know that you are doing some methane power generators, solar 
panels, working on a microgrid, interested to see how the 
microgrid work comes out when it is completed. And what I want 
to ask, though, and this is a little bit broader than biofuels, 
which I have raised in past, is in the context of the rebalance 
to the Pacific, how does that affect Navy energy security? And 
you have got that huge expansive region and the geographically 
fragmented energy infrastructure. Now we want to emphasize our 
presence there. How does the Navy intend to ensure that it can 
meet operational energy requirements to carry out its missions 
and reduce fuelling vulnerabilities in that region?
    Secretary Mabus. Well, you just gave the best rationale for 
what we are doing. Number one is energy efficiency so that we 
don't have to have as much energy, and we are doing stuff 
ranging from things like voyage planning to hull coatings to 
stern flaps to changing the light bulbs in ships, all of which 
save pretty significant amounts of energy on board that ship.
    We are looking, as you pointed out at Miramar, we are 
looking at alternative energy. If you look at some of the 
places across the Pacific, at Guam, at Hawaii, at Japan, at 
Diego Garcia, where we--all of which, where we have significant 
infrastructure, very high energy rates there. So if we can move 
to a renewable energy, a lower cost so that we don't have to 
have that vulnerability of shipping oil and gas to some of 
those places, that will also help in that energy security.
    Mr. Peters. Is that affecting acquisition and procurement?
    Secretary Mabus. We are well on our way to the 50 percent 
alternative fuels for Navy, both ashore and afloat.
    Mr. Peters. Okay.
    Secretary Mabus. And so, in that sense, yes, it is, but it 
is, in many ways, the new normal. That is what we are going 
after and, on the other side of the coin, for far more 
efficiency in whatever we do.
    Mr. Peters. Admiral.
    Admiral Greenert. We are--maybe I can quantify a little 
bit. The Secretary eloquently laid it all out. In sailor terms, 
you know, when a Hornet pilot takes off from the carrier, the 
first thing they do is say, Good, I am in the air. The second 
one is, Okay, where is the tanker? And in a more efficient 
Hornet engine, that is less other Hornets--these are strike 
fighters--that we have to use to be tankers. So, I mean, that 
is real warfighting eventually, so 5, 6, 7 percent, that is 
other aircraft that we put back into the flight.
    The Secretary mentioned stern flap. That will get you 5 
days, additional days at sea that you don't have to look for an 
oiler. That is the unique part of being a sailor, where am I 
getting food, because you ain't going to fish for it. It is 
going to run out. And then secondly, we have an engine that 
will get us 10 days, so it becomes real stuff pretty soon.
    Mr. Peters. Well, I want to commend the Navy and the 
Marines for thinking about both insulation and fuel in terms of 
alternatives and security. It is heartening, and I think it is 
smart in this budget context, too. Also, Admiral, I did want to 
thank you on the recent visit to San Diego that you made, and 
you are welcome back anytime. I think you were the one who 
coined the term ``solar vortex,'' which we have gotten a lot of 
mileage out of. I appreciate that. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary Mabus, you brought up earlier one of my primary 
concerns, which is that as we cancel multiyear contracts, we 
pay more per item and get fewer of them, and it is recognizing 
budget constraints. I am concerned that, you know, some of the 
decisions we are being forced to make are pennywise and pound 
foolish, as we would say.
    And that brings me to the MH-60, and Admiral Greenert, I 
understand that you are considering reducing the purchase by 29 
aircraft, if I am correct with that. And my question is, what 
is the cost of terminating that procurement versus the cost of 
actually continuing to purchase the 29 helicopters, and what 
type of negative impact do you expect with the reduction in the 
equipment?
    Admiral Greenert. Well, sir, if we get a good outcome on 
the aircraft carrier, I need to continue because I need the 
helicopters for the air wing. We would continue purchasing at 
least another year on that. So I will just state that up front.
    But I will have to get you the precise numbers on shutdown. 
But I am pretty sure it is about the same to shut down and 
terminate and--those costs as it does--because it struck me 
when I remember talking to my guys about it.
    [The information referred to can be found in the Appendix 
on page 154.]
    Mr. Scott. And that is what we have seen as well, but I 
would appreciate those numbers. And it just doesn't make sense 
to me that we would pay the same thing to terminate a contract 
as we could get the 29 additional aircraft for, even if we--if 
we didn't have a need for them, certainly we have allies out 
there that would need them.
    General Amos, thank you for your service. As you know, I 
have had the opportunity to do a Wounded Warrior hunt with 
several marines, and they wanted me to make sure that I spoke 
up for a couple of things, one being the A-10, and they sure 
would like to have a .45 instead of a 9-millimeter.
    But with that said, the JSTARS [Joint Surveillance Target 
Attack Radar System] fly out of Robins Air Force Base. We are 
very proud of them. The Air Force has proposed to recapitalize 
them, which would give you more information--more accurate 
information and, hopefully, improve that battle management 
platform.
    If you could just speak to the benefit to the Marines of 
that JSTARS battle management platform, I would appreciate it.
    General Amos. Congressman, first of all, I would like the 
.45 instead of a 9-millimeter, too, but that is for another 
budget at another time.
    But it has been--it is a combat-proven platform, back to 
the JSTARS battle management airplane you are talking about. It 
has done well in combat. It served us well all through the 
march up to Baghdad, going all the way north and then settling 
in that area afterwards when we came back in.
    So it has been a battle-tested platform. It gives us the 
situational awareness while we are on the ground of what it is 
seeing in the air, a moving target indicator and a few other 
things that is very critical to us. So it is a battle-tested 
program.
    I can't speak to programmatic decisions being made by the 
Air Force. The Chief of Staff of the Air Force is struggling 
with the budget exactly the same way we are while we are trying 
to all figure out how we can pay our bills to provide the best 
combat readiness our Nation needs.
    Mr. Scott. Well, thank you. And the beauty of the JSTARS, 
obviously, is that the radar can see such a large area and it 
is a big world out there.
    Gentlemen, Secretary Mabus, thank you for your service.
    With that, I yield the remainder of my time, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And thanks to each of you for being here and for your 
service.
    Before I ask a question, I actually just wanted to lob a 
comment. We are hearing a good amount of interest from folks in 
my neck of the woods around reauthorization of overtime 
payments for Navy civilians who are working on the forward 
deployed carrier in Japan and I was hoping that the Navy would 
be supportive of that reauthorization.
    For questions, let me start with Admiral Greenert.
    Can you talk about how much risk we are assuming by not 
fully funding the expected amount of depot-level work for our 
vessels. And, you know, what is the expected amount of savings 
that will result out of that decision? And is there a 
reasonable expectation that we can pay for the costs of 
implementing that decision in the out-years?
    Admiral Greenert. Well, the definition ``fully fund''--
there is the request, and then we would be our comptroller 
and--working with NAVSEA [Naval Sea Systems Command] to--there 
are a number of programs--you are probably aware of many of 
them--we have in place to improve the efficiency of each of our 
depots. So we ask them, ``How is your program going? What is 
your goal for the year?''
    We apply that to their budget request and that becomes, if 
you will, the lesser funding. So we might fund the 97 percent 
or whatever that number turns out to be. I know the rolled-up 
number, but each depot is different.
    If we don't get that right, that is man-days that aren't--
the work that doesn't get done, because we thought it would 
take 2,500 man-days. It takes 2,650. So there is a little bit 
of risk in that. And you got to come back around the next 
budget cycle and fix it, and we have had to do that.
    But, sir, you know, we have to--we got to be efficient with 
the taxpayers' dollars and be good stewards. So we--and they 
have really responded. The depots have responded. They are much 
more efficient.
    Mr. Kilmer. Are there specific alternatives that the 
committee ought to consider to fully fund that depot-level 
maintenance to protect the investment that we are making in our 
naval--in our maritime vessels?
    Admiral Greenert. I wouldn't suggest it. What I mean by 
that is we--I think you had asked us to sit down and say, 
``What have you assumed in those efficiencies, if you will, 
such that we would like''--I commit to you that what we have 
presented and Secretary Mabus has approved on my behalf is 
fairly closely scrubbed, sir.
    Mr. Kilmer. Thank you.
    Secretary Mabus, the committee is currently undergoing a 
multiyear effort to review acquisition systems and I wanted to 
hear from you about what you see as the biggest challenges to 
the Department of Navy in terms of shipbuilding and in terms of 
non-major defense acquisition programs.
    Are there specific considerations that we should be mindful 
of when considering the requirements of the Navy and of the 
Marine Corps? And, I guess, in short, what can Congress do to 
help?
    Secretary Mabus. Well, the first part of that question, we 
have been getting, I think, all our acquisition programs well 
under control, shipbuilding, the aircraft programs that we 
control. We have done it by competition. We have done it by 
multiyears. We have done it by block buys. We have done it by 
using some pretty basic business strategies.
    But going forward from that, we are also looking--and I 
think that, as you take this look--as Congress takes this 
look--we are looking, for example, at service contracts. We 
spend about $40 billion a year on service contracts.
    And what we have undertaken--and we are absolutely 
confident that we can do it--is we are going to take 10 percent 
of that, about $4 billion a year, $19 billion over the FYDP, 
out of service contracting without really having that much of 
an impact on what we get.
    And that is just by being able to follow money from the 
time it is appropriated all the way through to the time it 
comes out as a good or service that we get.
    So I would ask you to not just look at the major 
acquisition programs, not just look at--look at how we and 
everybody is structured. Look at where the growth has been. 
Look at what the benefit is that you get from that growth.
    And, as General Amos, who I have had the pleasure to serve 
with now for almost 4 years, said, we build very expensive 
things in the Navy, but they also amortize pretty well. We just 
retired Enterprise after almost 52 years of service.
    So if you break it down on that standpoint, you are getting 
a lot for your money. But it is a big, big upfront cost, and I 
think you should look at the service that those platforms give 
you.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hunter [presiding]. Thank you.
    Mr. Bridenstine is recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I just wanted to ask Admiral Greenert--I have an interest 
in specifically the Growler. As a Navy pilot, I have been 
deployed on aircraft carriers. And the EA-6B Prowler would 
become a national asset as soon as we got into theater. It 
would depart. We would lose it as an organic asset to the 
aircraft carrier, to the air wing.
    And I know right now we are slated to have five Growlers in 
each squadron on an--or in an air wing. And I was wondering--
there is a concern I also have about not just not having enough 
assets, but also a concern about the risk that is injected when 
we take the F-18 off production, given the F-35 has had some 
risks.
    My question is this. I saw that you put out a recent 
unfunded priority for additional Growlers following the release 
of the budget and I was just wondering if you would talk about 
that priority and the unfunded piece of it.
    Admiral Greenert. Yes, sir. What we have done is I 
submitted--in consultation with Secretary Mabus, I submitted, 
in responding to the chairman's request to the chairman and the 
Secretary of Defense for their look, an unfunded requirements 
list. Yes. I put the Growlers on there.
    The issues became--you articulated some of it--when you 
look at requirements, we are at minimum requirements, as we 
know it. However, I look to the future. And, to your point, 
electronic warfare, electronic attack, is critical. It gets us 
joint assured access. I see a growing need, number one.
    Number two, there are a few studies going on looking at a 
joint requirement. Well, that is us. We are the provider. So my 
view was, for hedge and for risk reduction, I thought it would 
be appropriate to describe what I view as a need--a future need 
and potential requirement.
    Mr. Bridenstine. Secretary Mabus.
    Secretary Mabus. We are the prime service now to do 
electronic attack, as you pointed out.
    Mr. Bridenstine. Yes, sir.
    Secretary Mabus. And for that reason and for what the CNO 
said, we are five planes in a squadron today. Looking out in 
the future, we don't think electronic attack is going to get 
any smaller.
    We are also very mindful of the industrial base. And if we 
buy the Growlers that we have in the budget, that line will 
continue through 2016. And I know that we are working on things 
like foreign military sales, things like that, to keep that 
line in business.
    But to the CNO's point, today we have the minimum numbers 
in each squadron. Looking out to the future and to what 
electronic attack may or will become, it is an insurance 
policy. It is a hedge.
    Mr. Bridenstine. Sure.
    Admiral Greenert and Secretary Mabus, what is the role of 
low-cost autonomous surface vessels in the fleet of the future? 
What steps is the Navy taking now to build autonomous surface 
vessels?
    Admiral Greenert. I see them for--you can use them for 
security, for sure. You know, they would be surveillance if you 
go in a harbor. We have done that already, by the way.
    But this summer we will be demonstrating autonomous 
unmanned surface vehicles for mine warfare where they go out 
and actually tow a sensor. We have it in the 5th Fleet arena, 
the Arabian Gulf. And so I see that as a future--a pretty 
important element.
    I would like to move ahead to we will develop a swarm 
concept of operations. We do a lot of counter-swarm. I want to 
flip this. I want to do some swarm. And we have the technology 
and the means. Now we have to put our efforts to it. That is my 
view.
    Secretary Mabus. We are the only service that does unmanned 
above the sea, on the sea, and under the sea, and surface 
unmanned autonomous surface vehicles have to be a part of that 
future fleet.
    And the one example that the CNO used, you are seeing that 
with the--particularly with the littoral combat ship, sending 
out autonomous surface--unmanned surface vehicles to hunt 
mines, to keep sailors out of the minefield, and to be way more 
efficient in hunting mines than we do today.
    Mr. Bridenstine. Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. I thank the gentleman.
    The gentleman from Rhode Island is recognized.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral and General, I want to thank you for 
appearing before us today. And, of course, we appreciate the 
benefit of your testimony.
    General, since this is your last posture hearing before the 
committee, I just want to express especially my appreciation 
for your service. I have enjoyed getting to know you and 
working with you in your position as Commandant of the Marine 
Corps, and I wish you well in the next chapter of your life. 
Thank you, General.
    Gentlemen, making predictions is obviously a dangerous 
business to be in, but I certainly think that one point that we 
can all agree on is, as we look out into the future, there is 
going to be an ever-increasing reliance on key enabling 
technologies.
    Some are more obvious, like the tactical information 
networks that make possible many advanced warfighting concepts, 
including cyber.
    Others are more nascent, such as the contributions of 
future aerial platforms, like UCLASS [Unmanned Carrier-Launched 
Surveillance and Strike], or future technologies, such as 
directed energy or rail guns, advanced hypersonics, persistent 
unmanned surface and undersea vehicles, as we were just 
discussing a moment ago, next-generation EW [electronic 
warfare] and radars and future ships, such as the Zumwalt.
    Admiral, if I could start with you, I would appreciate your 
thoughts on what those investments, particularly in directed 
energy and rail guns, mean to the future of the fleet.
    And the other question I would like to get to, hopefully, 
time permitting, is: With the construction rate proposed in the 
Navy's 30-year shipbuilding plan, the nuclear attack submarine 
inventory will slowly decline to 43 SSNs in 2028. Assuming the 
global COCOM demand remains fairly steady, how will the Navy 
compensate for the projected shortfall of attack submarines 
and, in particular, for undersea payload capacity as the SSGNs 
[guided missile nuclear submarines] age out?
    Admiral Greenert. The directed energy, we are going to do a 
demonstration this summer. In fact, we are down to final 
certification.
    We will load a directed-energy weapon laser on the Ponce, 
which is our afloat forward staging base. It is an LPD. It is 
an amphibious ship. We have sized it. We have looked at it. We 
have already demonstrated this particular, if you will, laser 
gun--laser weapon system.
    What--the value of it is its persistence. It costs under a 
dollar for one round, if you will, laser round. We have already 
proven it against a drone and against a small craft.
    So the deal is I want to get it out there and take a look 
at it and see how does it perform in that sort of harsh 
environment, and then we adjust.
    Imagine you have a laser. You don't have to have as much 
ammunition on board and all that brings that. So then you want 
to miniaturize it. You have to have the power system to be able 
to produce the power repetitively.
    But I think we can overcome on that. We are on a track for 
that. And then you raise the energy level that it can deliver, 
and we are on track to do that.
    Mr. Langevin. And I applaud the work that the Navy is doing 
in that respect. I have met many times with Admiral Klunder at 
ONR [Office of Naval Research] and I am very familiar with that 
weapon system on the Ponce and will be following that closely.
    Admiral Greenert. Secondly, I will comment on the rail gun.
    We have these vessels called joint high-speed vessels. They 
are catamarans. And we have the ability to put the power system 
in and put a rail gun mounted on the back. And in the summer of 
2016--late summer, probably--we want to take that to sea and 
demonstrate it and see how can the rail gun perform.
    The issue with rail gun is the barrel. That high energy 
that is generated through there can tend to melt the barrel. So 
we have to get the right barrel and do that right. We are 
working that and the engineers tell me, ``No. We can do this.'' 
And, secondly, you have to generate the power for that 
electromotive force. So those are two right up front there.
    The future in submarines--we have a few things up our 
sleeve to help get through what we call this trough that you 
alluded to.
    One, we will look at deployment lengths. They are 6 months 
now. Maybe extend a few, and we would pick and choose those.
    Two, the maintenance, the time they are off service, can we 
bring them--you know, can we be more efficient in our 
maintenance or kind of move that around differently.
    And then we will look at where are our submarines forward 
deployed, where are they stationed, put another way. As you 
know, we are moving one SSN to Guam here in this budget 
request.
    So if we continue to do that, we will work on the trough, 
as you say.
    Mr. Langevin. Thank you, Admiral.
    With time permitting, we have obviously invested billions 
of dollars to ensure that our aircraft carriers can project 
power anywhere on the globe.
    It is critical that we continue to make the investments to 
ensure that we are leveraging our carriers' impressive 
capabilities to the maximum extent possible.
    How do you envision Unmanned Carrier-Launched Surveillance 
and Strike enhancing the carrier air wing?
    Admiral Greenert. Well, as a minimum, it will--the very 
minimum, it will provide a fueling capability, but that is not 
its primary purpose.
    That returns, as I was mentioning earlier, Super Hornets--
joint--excuse me--strike fighters right to the air wing. So 
immediately the air wing is better. They will be an integral 
part. But they can do refueling, ISR [intelligence, 
surveillance, and reconnaissance]. So they will go out and 
surveil.
    Our requirements are you have to have a payload. So we can 
mount all kind of surveillance on there. And then it has to 
bring a weapon with it.
    Then I am convinced industry will evolve this thing so that 
its observability will get lower and lower. And then you are 
talking about going into increasingly denied environments.
    So, frankly, it will become a platform with payloads, just 
like the Super Hornet and like the Joint Strike Fighter B, in 
the--my view, in the carrier of the future--air wing of the 
future.
    Mr. Langevin. Thank you, Admiral.
    Thank you, Chairman. I yield back.
    Mr. Hunter. I thank the gentleman.
    The gentleman from Alabama, Mr. Byrne, is recognized for 5 
minutes.
    Mr. Byrne. Thank you very much, gentlemen. We appreciate 
you being here today. I am sorry you are having to sit so long 
through this process, but we do appreciate it. It is helpful to 
us.
    Mr. Secretary, I would like to talk to you about my 
favorite topic, the littoral combat ship. I have read the memo 
that the Secretary of Defense sent you on 24 February in which 
he tells you, in essence, build it out to 32 ships, pause, and 
over the next year he would like for you to consider three 
options and come back to him with your recommendations based 
upon those options.
    The options are for the procurement of a capable and lethal 
small surface combatant, and his three options are a new 
design, an existing ship design including an LCS, and a 
modified LCS. I would like to take you through those three 
options, if I could.
    Are you aware of an existing ship design that would meet 
the definition of a capable and lethal small surface combatant 
other than an LCS?
    Secretary Mabus. The rest of that requirement is that I 
have to look at cost--because we have got to get enough of 
these ships--and I have to look at when they could be delivered 
to the fleet.
    So if you add those two requirements to it, I do not know 
of another design. But that is part of this look, Congressman, 
is to see if there is another design out there that could meet 
those requirements.
    Mr. Byrne. Yes, sir. I understand you have some work to do, 
but I am just trying to get what you know today.
    So let's go to the second option, which is designing a new 
ship. Given your goal to have a 300-ship fleet by 2020, which 
is 5 fiscal years from now, and the cost, as you mentioned 
before, what would be the timeline for developing a new ship--a 
new ship design altogether? And what would the cost be for 
that?
    Secretary Mabus. The normal timeline--and the CNO and I 
have both talked about this--the normal timeline of a blank 
sheet of paper to introduction in the fleet is about a decade, 
about 10 years. And I don't have any idea about what the cost 
would be at this time.
    Mr. Byrne. Well, we have gotten the cost for the LCSs down 
to about $350 million a ship now. Is that right?
    Secretary Mabus. That is correct.
    Mr. Byrne. Could you produce a new ship for anywhere near 
$350 million over the time horizon that you are looking at by 
2020 for a 300-ship fleet?
    Secretary Mabus. The LCS is the only ship that we are 
currently producing anywhere close to that cost, any warship. 
And, again, that is the purpose of this look, is to see.
    But I am very proud of how much the cost has been driven 
down, working with our partners in industry. Because, as you 
know, the first ships of the LCS, of both versions, cost more 
than $750 million and now we have gotten that down to $350 
million, more or less--and perhaps a little less--going 
forward.
    That is very hard to do, and it has been a real effort, but 
it has been a real partnership between Navy and industry to do 
that.
    And so we will certainly, as the Secretary directed, look 
to see what a cost would be on continuing to build the LCS, on 
building a variant of the LCS, or a completely new design. And 
he has explicitly instructed me to look at cost and delivery as 
well.
    Mr. Byrne. Well, when I look at the LCS, I am reminded of 
my favorite boxer of all time, Muhammad Ali. Now, he didn't win 
his fights by sitting there and just taking punches. He always 
said that he liked to float like a butterfly and sting like a 
bee.
    It seems to me, when I look at the LCS and what it was 
designed to do, it is a Muhammad Ali. It floats like a 
butterfly, a very fast butterfly, as you know, and stings like 
a bee.
    Isn't that what you are looking for?
    Secretary Mabus. Well, as you know, both the CNO and I are 
proponents of the LCS. We believe that we need this ship in the 
fleet and appreciate very much the fact that we are going to 
continue to build these through the FYDP to get to 32. And, as 
you said, the only pause here is a pause in contract 
negotiations on ships past 32. So that is several years from 
now.
    And I think that, very frankly, it is a good idea to take a 
look at capabilities, to take a look at requirements, to take a 
look at how ships meet these, because we do that on a very 
routine basis.
    We do it--as I have pointed out earlier, on the DDG-51, we 
are about to start Flight 3, which is actually the fourth 
flight of this destroyer. We are moving to Flight 4 of the 
Virginia-class submarine.
    We tend to--we don't tend to--we actually do look at every 
different ship type as technology changes, as requirements 
change, as missions change.
    And the beauty of the LCS or a ship like the LCS is it is 
modular so that you don't have to build a new hull, you don't 
have to build a new ship. As technology improves, as technology 
changes, as requirements change, you simply change out the 
modules.
    Mr. Byrne. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman.
    The gentlelady from California, Ms. Speier, is recognized.
    Ms. Speier. Mr. Chairman, thank you.
    And thank you to each of our great leaders who are at the 
witness table.
    My first question is to General Amos.
    First of all, congratulations on your clean audit, the 
first service to have one. That is good news, I think, for all 
of us.
    I want to ask you, though, about a letter that--or a 
request made by Secretary Hagel last May in which he ordered 
all of the services to look at their positions of trust--
soldiers who are in positions of trust for any previous 
criminal or unethical behavior.
    The Army disqualified 588 as sexual assault counselors, 
recruiters, or drill sergeants after discovering that they had 
records of either sexual assault, child abuse, or drunk 
driving.
    The Marine Corps has disqualified no one, zero, and I find 
that remarkable, particularly since every other service has had 
at least a few.
    I have sent a letter today to the Secretary asking that he 
ask the services to go back and take a relook because you can't 
have 588 in one and zero in another of the services, 
particularly when the Marine Corps has, you know, had some 
problems in the past.
    Can you respond to that?
    General Amos. Congresswoman, I would be happy to. Thanks 
for the opportunity.
    The two communities that we call, that you have described 
as those that we need to pay particular attention to when it 
comes to dealing with sexual assault and the victims of sexual 
assault, are our recruiters. That is where it begins for us.
    And recruiting--I think you know this from seeing them out 
in California. Our recruiting is a primo job for our marines. 
And so we go through--in that community, we go through a 
recruiter screening team. We go through their records. We do a 
Federal law enforcement screening on every one of them. They 
are screened by their commanding officers.
    So the recruiters, that part of that community, is screened 
more so than, I think, any other--I think I can say this--any 
other service's recruiting team.
    Ms. Speier. General, I don't want to interrupt you 
necessarily, but I have got a very short amount of time and I 
have another question to ask.
    So are you going to take another look, is the question I 
asked, because it just seems a great disparity that there is 
not one soldier who was in a position of trust that did not 
meet that review and be recognized as not being appropriately 
placed.
    General Amos. Congresswoman, I will do that. You have my 
word, and I will get back to you on this.
    [The information referred to can be found in the Appendix 
on page 154.]
    General Amos. Just a comment on our sexual assault team, I 
mean, our civilians and our marines. They go through an 
enormous screening before they even are eligible to even be 
considered for employment, I mean, background checks and 
everything.
    So the fact that we have had none is not necessarily an 
indication that we haven't looked. We have actually taken----
    Mr. Speier. All right. Thank you. I am sorry, but I do want 
to get one more question in. I have a minute and 45 seconds.
    All right. Admiral Greenert, thank you for arranging for 
the opportunity for both Congressman Garamendi and myself to 
visit the USS Coronado when it was in Cartagena. It was a very 
edifying experience.
    I have been critical of the LCS. I still have great 
concerns. But I must tell you one of my biggest concerns right 
now is that, you know, in private conversations with some on 
the ship--and I will say that your commander there did an 
outstanding job. He was an incredible cheerleader, loves the 
ship.
    But in some private conversations I had with others on the 
ship, the electronics on the ship are not working. And my 
concern is that, when the warranty is out, General Dynamics is 
going to start charging us and they have never presented us 
with a ship that was fully functional to begin with and we 
should not be paying for that. So that is number one.
    Number two, one of the criticisms is that you can't see out 
of the side of the ship. And he said, ``Well, we probably won't 
be able to get that fixed until it goes into dry dock. That is 
2 years away.'' I mean, I think that is a big problem.
    They left Cartagena, went through the Panama Canal. And 
what happened? The ship got scraped on the side of the Panama 
Canal. So we have got a problem here, and I am wondering what 
you are going to do about those two issues.
    Admiral Greenert. Well, the first one we are reasonably 
aware of, the electronics piece. There are a couple of things, 
number one, how well does it intercept signals, process it, and 
use it to be functional; number two, the internal electronics. 
And when we ordered the ship, we wanted to address that after 
delivery.
    But it is a valid comment. We will look into it. And I want 
to make sure I understand specifically, when we say 
``electronics,'' what it is. So I got that, and we will take a 
look at that.
    The second one, it is a paradigm, to say the least, to ask 
people not to be able to go out on a bridge, a wing wall. The 
other folks are doing reasonably well on that.
    But we are revisiting that aspect of it, you know, the 
ability to, if you will, see around rather than just saying 
check out the cameras or rig up rearview mirrors.
    So what we are going to do about that is we are going to go 
back in and say what is the basis of this and how do we 
continue to do it.
    Ms. Speier. I thank the gentleman. My time has expired.
    Mr. Hunter. I thank the gentlelady.
    The gentlelady from Illinois is recognized.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General Amos, I join my colleagues in expressing my 
admiration for your service. My daddy was a Marine NCO [non-
commissioned officer] in World War II for just a few years and 
was an Army officer for about 16 years. And I think his 
greatest regret, despite his pride in my service, was that I 
was not ever a marine. So, hopefully, he is impressed, now that 
I get to talk to the Commandant.
    I do have a question that pertains to where we are moving 
forward, back with the dwell time issues and the reset of 
marines as you are drawing down the Active Duty force and how 
that reset is going to go with the Marine Reserves.
    Specifically, how sustainable is this 1:2 dwell time? I 
mean, this is a pretty intense pace that you are going to be 
putting people on. And is that sustainable 5 years? Two years? 
Are we going to be relooking at this? And are the Reserves 
doing the same thing?
    General Amos. The Reserves, Congresswoman, as you know, are 
a little bit more mature. They have already finished at least 
one enlistment in the fleet. They already, for the most part, 
have had one tour as an officer out in the fleet Marine force.
    So they are a little bit more mature. We are going to 
maintain them on a 1:5, which is the standard Reserve-Guard 
ratio of deployment to dwell. So there is no intents in use to 
change that.
    We are, though, going to capitalize on their experience and 
try to draw them in as often as we can. We are making plans--in 
fact, we just upped--in the 2015 budget, upped the Reserves 
budget by a significant amount of money just so that we can 
bring them into our unit deployment. It is good for them. It is 
good for us. So we are going to continue to use them. We are 
not going to wear their dwell out.
    Inside of us, we are a young service. We are the youngest, 
not age-wise, like 238\1/2\ years, but we are the youngest of 
all the services. Sixty-two percent of the Marine Corps are on 
their very first enlistment. You know, I have got almost 20,000 
teenagers in the Marine Corps.
    So when I travel around--and the sergeant major and I, we 
visit marines in Afghanistan. They are deployed. And the only 
questions we get is not, ``Hey, sir, I am too tired. This is 
too hard.'' I get the question, ``Sir, when am I going to get 
to deploy again? Now that we are coming out of Afghanistan, 
where are we going to go next?''
    So we are a young force. They signed up to deploy. So the 
pressure on the 1:2 dwell--I mean, I am not naive--will be on 
what we call the career force, and that is 27 percent of the 
Marine Corps.
    The bulk of the Marine Corps comes in and leaves and does 
not retire, but the career force stays on. That is the 
captains, the lieutenants, the master sergeants, the gunnery 
sergeants. And it will be harder on them.
    The decision to go to 1:2 dwell was simply a function of 
budget. It is a function of you have a Marine Corps to respond 
to today's crisis with today's force today, not a month from 
now, but today.
    And the only way we can do that is pull money into 
readiness, keep the units fully manned, fully trained, and 
fully equipped so that they can deploy and be ready. And to do 
that, to shrink the force down, it results in a 1:2.
    I am actually pretty optimistic. I am not getting any--of 
course, we are not in it yet, but we have been in a 1:2 dwell, 
actually, for probably the last 6 to 7 years.
    So I am optimistic that our Marine Corps is going to be 
able to sustain itself at this. Is it ideal? Absolutely not. 
America needs a Marine Corps of 186,800, which is a 1:3 dwell.
    Ms. Duckworth. It is certainly a heavy load that we are 
asking your marines to shoulder going well into the future, and 
I just want you to know that there are many of us here who 
certainly appreciate that burden that you are carrying for our 
Nation.
    I want to talk, also, about equipment. You talked about the 
equipment and, specifically, the return of the vehicles from 
Afghanistan and looking forward with the JLTVs [Joint Light 
Tactical Vehicles] and we are going to slow down the 
procurement of the JLTVs along with the Army slowing down the 
procurement, but you are going to try to increase the number of 
up-armored Humvees to make up the difference.
    And, again, you know, ideally, looking forward, how does 
that balance come out? And does that also affect the Reserves--
the equipment in the Reserves as well?
    General Amos. We haven't sorted out yet with the Reserves 
the JLTV. We are still in the program of record for it. We are 
the lead service into it in that we get the vehicles first.
    We are teamed up with the Army. We get 5,500 vehicles. We 
slid it to the right one year just because of budgetary issues. 
We are still going to get that.
    What we have done, though, inside what we call the ground 
vehicle strategy in the Marine Corps, because of money, we have 
had to look and ask ourselves the question, ``What is good 
enough?''
    And we had 20-plus-thousand Humvees. A bunch of them are 
new. They were the ones that we got in 2006-2008. We are going 
to refurbish those--probably about 13,000 of those. JLTVs will 
fit in there. We are going to put more MRAPs [mine-resistant 
ambush protected vehicles] back in the inventory than we had 
originally planned.
    So it is a balance right now between modernization, paying 
our bills, and being able to be a ready force. We are trying to 
cut Solomon's baby in a variety of different ways, but, 
hopefully, we are doing it the right way. It is a balance.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Hunter. I thank the gentlelady.
    The chairman recognizes himself for some questions.
    First, let me say sons out, guns out. That is right. My 
sleeves are actually rolled right now under my suit. You can't 
tell. But I think that is the best decision the Marine Corps 
has made in a long time.
    Commandant, let me say thanks to you and Bonnie for your 
time, for your service. It is not always easy to reconcile 
warfare with, let's say, the political class. It is tough. And 
you have had to do that, I think, during the last couple of 
years simply because of the ideology that has been in place. It 
is hard to reconcile combat and the elite political class.
    I mean, that is a fine line to walk, and I want to thank 
you both for doing it and for your--just your time and effort 
and your love for the Marine Corps and your marines. You love 
your marines. We can tell that. We can see it. So thank you.
    And I think this will be the last time that you are sitting 
down there, and you are probably like, ``Thank God.'' But thank 
you very much. Thanks for what you have done, for your service, 
and for your love of the Marine Corps and this country and your 
marines. So thank you.
    General Amos. Thank you, sir. You know this better than 
most sitting in this room. So thank you.
    Mr. Hunter. And to Bonnie. Is she here right now?
    General Amos. Sir, she is not. She is afraid to come in 
here.
    Mr. Hunter. All right. Same here. Well, thanks to her too. 
Yes. She has probably gone through a lot more than you have 
because she doesn't get to come out here and talk about it.
    So let me say first--I guess the question is: Now that you 
have taken--the Marine Corps has taken on the role of 
responding to the Benghazi-like attacks. The Marine Corps 
stepped up and said, ``Hey, we are going to take this on.'' 
Right? And you have done that. You have a unit in Spain. You 
are doing special-purpose MAGTFs [Marine Air-Ground Task 
Force]. You are responding to that. So you have now stepped up.
    So I guess the question is: Does your budget request match 
what you are now responsible for? Because if it happens again, 
the Marine Corps is on the hook because you have stepped up and 
said, ``We are going to make sure it doesn't happen again.'' So 
are we able to make it not happen again, basically?
    General Amos. Congressman, thank you.
    We have budgeted for that special-purpose MAGTF we 
currently have in Moron, Spain, and right now that works out of 
Africa. You are well aware of its success stories and its 
relevance.
    We have also budgeted for a second one in another area of 
operations. So we actually have two in our budget in the FYDP. 
We planned for that. So the answer is yes. And that is just in 
recognition of the future security environment.
    Ideally, what Admiral Greenert and I would like to do is 
put those rascals on ships and, when we get ships, we will. But 
for the time being, we are going to put them in the areas of 
operations for the combatant commanders so that they can be 
relevant.
    Mr. Hunter. So when do you make the transition from land-
based to amphibs? Because that is what you just said, 
basically. Right? ``We want to put them on amphibs and''----
    General Amos. Exactly. What I am saying is, ideally, in a 
perfect world, what we would like to do is put them on--for 
instance, we are looking on the west coast of Africa right now.
    It is hard to find a base that will--a country that will 
allow us to operate out of there. A ship of some kind, afloat 
forward staging base--some type of ship, an amphib, would be 
perfect for that area. And Admiral Greenert and the Secretary 
and I are working on that right now.
    So that would be an indication or example of transition to 
that. But we are probably down the road, quite honestly, with 
the number of amphibs we have.
    Mr. Hunter. Thank you, Commandant.
    Admiral Greenert, a question about the dual-mode Brimstone 
missile.
    We have been talking about swarming boats. That is the 
Hellfire-ish missile that has radar and IR [infrared]. So I 
have seen a video where you have a bunch of swarming boats and 
it takes out a whole bunch of them.
    And you can launch it off ships. You can launch it off UAVs 
[unmanned aerial vehicles]. The British have done all the R&D. 
It is a package deal. And you are very interested in this. I 
understand that.
    I just want to know how--how is that going? Are we going to 
actually do it? Are we going to employ it? Are we going to use 
it?
    Admiral Greenert. As I sit here in front of you, I can't 
tell you, yes, we are. As I sit here in front of you, I will 
tell you, this summer--earlier I was talking about we are going 
to do a swarm demonstration, we swarm and, at the same time, 
look at counter-swarm.
    During that, next comes the lethality, what kind of guns, 
what kind of missiles, what kind of sensors are we going to put 
on these.
    So I guess I would say stay tuned. We will keep you 
informed where we want to go with that. I think we need to----
    Mr. Hunter. Do you like the missile?
    Admiral Greenert. Come again, sir?
    Mr. Hunter. Do you like the missile?
    Admiral Greenert. I do like the missile.
    The question is: How do you integrate it? How does it 
perform? How do I buy it? And if I need to--I don't want to say 
``get around''--how do I get it through the system so it isn't 
another one of these--you know the deal--program of record, 
long-term thing? We need this thing out there soon, if we need 
it.
    Mr. Hunter. So because they have already done the 
investment, the Brits--they have already done the investment 
and it is a non-R&D product that is actually packaged and ready 
to go, Secretary Mabus, is there a fast track for something 
like this, where the Navy says, ``Hey, it is good to go. There 
is no R&D. We just want it''?
    Secretary Mabus. There are fast tracks for urgent needs 
like this. And whether it is this missile or some alternative, 
we are already moving to meet the swarming things. We have got 
some money in this budget to put the Longbow missile in the 
surface warfare component of the LCS.
    So, yes. The short answer is yes, there are. But a little 
bit longer answer is you have got to do what the CNO said first 
and show that we can integrate it, that we can use it, that it 
can do the job as advertised.
    Mr. Hunter. Thank you all.
    And I just want to say in the end, I mean--you know, the 
Army is going to knock me for this, but probably in the next 
15, 20 years, the Navy, Marine Corps, and Air Force are going 
to be out there front and center.
    Everybody--the last two or three SecDefs [Secretaries of 
Defense] have said we are not going to get in a big land war 
again, it is all going to be pushing out, trying to reach out 
and touch people. And you all are going to be front and center. 
I know you have got a lot of planning to do.
    You have got the F-35s. You have got UCLASS. You have to be 
able to put everything together. You have got to be able to see 
it. And it is going to change the way that we fight. With 
everything networked, it is very complex and very complicated.
    And I wish you luck. We are here to help, and anything that 
we can do, let us know, because you have your work cut out for 
you.
    And I want to say thanks for your service. General Amos, 
congratulations, sir, on a beautiful career and congratulations 
on getting out relatively unscathed.
    And, with that, I would like to yield to the gentlelady 
from California, Ms. Shea-Porter--or from New Hampshire. I am 
sorry. I get those confused. They are both on the coast though.
    Ms. Shea-Porter. I would say they are both on water. It 
works. So thank you very much.
    Thank you, gentlemen, for being here.
    And congratulations to you, General, and thank you for your 
service.
    My question here is for the Secretary. You said in your 
testimony that maintaining undersea dominance is vital to the 
U.S. Navy, and we continue to fund the Virginia-class subs each 
year.
    Now, I have the Portsmouth Naval Shipyard in my district, 
and you know how famous they are for the great work they do. 
And they meet all of the challenges, including the sequester 
last year, which had an impact. But they have been on the job 
and their record is absolutely wonderful.
    So my question is very simple: In considering a future 
BRAC--and you know what the Congress had to say about that--but 
in considering a future BRAC, is the Portsmouth Naval Shipyard 
in that equation at all? I believe their work is essential. And 
my question is: Do you and does the Navy?
    Secretary Mabus. I am going to leave out whether--because 
we haven't been authorized to do a BRAC. And so I don't know 
what would be looked at.
    But I will say that all our naval shipyards, including 
Portsmouth, do incredibly good work. They do the work that we 
have to have to keep not only our submarines, but all our ships 
at sea, maintained at the highest state of readiness. They do 
so under sometimes difficult conditions. And so we value them 
very, very much. We value the workers.
    And I think that one of the things--when we were first 
forced to furlough last year, one of the things that Navy 
exempted from furlough was the shipyard workers, to make sure 
that we--or most of the shipyard workers--to make sure that we 
kept them on the job because we couldn't make up that time if 
they were not there.
    And I think that that speaks to the value and the 
importance that we put on them, not that we value any of our 
civilians less, but just that their work is so time-sensitive 
and, if you lose a month or a few days, there is no place to 
make it up.
    Ms. Shea-Porter. Right. And, as you know, they almost did 
go through the full furlough, but that was changed, 
fortunately.
    But my concern is that, as we look forward and we recognize 
there is dangers around the world and that is the reason that 
we continue to make the Virginia-class subs, we have to also 
make sure that we have the quality workers and that we have the 
facilities. And this is a public yard, as you know, that is 
open 24/7 and has been there, and saltwater runs in the veins 
New England.
    So I just wanted to ask that question. I appreciate that 
you couldn't really answer that at this moment, but I just 
wanted that for the record.
    Secretary Mabus. Well, and I will add that, in previous 
BRACs, the Navy and Marine Corps have taken out a lot of unused 
capacity. Now, I do think that DOD-wide we should take another 
look at what we have.
    But the Navy and Marine Corps, because of previous BRACs--
and I was Governor of Mississippi during a BRAC when one of our 
bases was targeted. And so I know exactly what you are going 
through. But I think that the quality of work and the necessity 
of work of all these shipyards speaks for themselves.
    Ms. Shea-Porter. Right. Well, we barely survived that round 
of BRAC, as you know. And when you see the work that they are 
doing and recognize how essential it is for national security, 
you know, I hope that will get the full measure of 
consideration.
    Thank you very much.
    And I yield back.
    The Chairman. I thank the gentlelady.
    And if there are no more questions, this hearing is 
adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 12, 2014

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 12, 2014

=======================================================================


    [GRAPHIC] [TIFF OMITTED] ======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 12, 2014

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. JONES

    General Amos. I recall hearing about Major Weirick's 21 Sept 2013 
email briefly from someone on my staff, but I do not remember the full 
context, nor the circumstances when I first read it.   [See page 19.]
    General Amos. Major Weirick's Battalion Commanding Officer issued a 
lawful military protective order as a result of the email. Commanders 
may issue a military protective order to safeguard discipline and good 
order in his or her unit.   [See page 19.]
    General Amos. No, I do not fear Major Weirick.   [See page 19.]
    General Amos. No. Mr. Hogue has not been reprimanded.   [See page 
19.]
    General Amos. Inasmuch as this matter is under review by the DOD 
Inspector General, I will not comment further.   [See page 19.]
    General Amos. Of the nine Marines held accountable for their 
actions in this matter, seven enlisted and two officers, only one, a 
Captain, was separated involuntarily after an administrative board 
found substandard performance on his behalf. This officer received an 
honorable discharge. This separation action, taken by the Secretary of 
the Navy, was determined subsequent to the NPR interview. No others 
involved were separated involuntarily as a result of performance or 
misconduct. One other officer accepted non-judicial punishment and 
remains on active duty. Four of the seven enlisted Marines were 
medically retired. One of the seven enlisted Marines remains on active 
duty; another served out his enlistment and separated from the Marine 
Corps. The last of the seven enlisted Marines died in a later training 
accident.   [See page 19.]
    General Amos. Editorial criticism is a part of being a service 
chief and making difficult decisions.
    During my service as Commandant, the Marine Corps has faced a 
number of challenges that we have worked diligently to address and to 
answer in support of our national security. Marines completed our 
mission in Iraq after 7 hard years of fighting there. We have waged a 
counter insurgency campaign in Afghanistan, while simultaneously 
helping train and assist Afghan National Security Forces.
    While thousands of Marines operated in Afghanistan, the Marine 
Corps continued to provide the best trained and equipped Marines ready 
to respond to global uncertainty around the globe. All of this being 
done during a period of fiscal uncertainty, marked by significantly 
reduced budgets, a substantial drawdown of force structure, and a 
civilian workforce furlough . . . all done during a time of war. This 
is unprecedented. The Marine Corps has faced these challenges head on 
and has performed well in every effort.   [See page 19.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. CONAWAY
    Secretary Mabus. On average, the DON uses 30 million barrels (bbls) 
of oil per year. Therefore, a $1 increase in the cost of a barrel of 
oil effectively results in a $30 million annual bill to the Department. 
Department of Defense fuel purchases are made by the Defense Logistics 
Agency (DLA) Energy Working Capital Fund.
    In FY11, the DON budgeted for fuel costs at $127.26/bbl. When the 
standard price increased on June 1, 2011 to $165.90/bbl, DON actually 
paid $38.64/bbl more than budgeted for four months of the fiscal year. 
Thus, the additional DON FY11 fuel costs were just over $500M.
    Similarly, in FY12, DON budgeted for fuel costs at $131.04/bbl. 
This price was set by the Office of Management and Budget (OMB) and the 
Office of the Secretary of Defense (OSD) Comptroller in November 2010. 
However, the price of petroleum increased between November 2010 and 
October 2011, resulting in DLA Energy adjusting the price to $165.90/
bbl to ensure solvency of its Working Capital Fund. The price of fuel 
was adjusted three more times that year with the total fuel costs 
exceeding the initial DON budgeted amount by approximately $500M. In 
recent years, DON has covered its additional fuel costs through 
reprogramming funding from other defense accounts.
    From FY11-FY13, the Services received an unfunded bill of $3.2B. If 
OSD had not reprogrammed $2B in FY12 and FY13, the Services would have 
seen a $5.2B increase to their fuel costs. Unfunded fuel bills in the 
year of execution significantly impact training, operations, and 
ultimately, national security.   [See page 29.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    General Amos. Please see the attached response from OSD. The Marine 
Corps continues to work in coordination with OSD on this issue.   [See 
page 43.]
    [The response referred to can be found in the Appendix on page 
149.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT
    Admiral Greenert. A final decision on maintaining or terminating 
the MH-60R multi-year procurement (MYP) contract has been deferred to 
FY16. Our proposed FY15 budget fully funds the MYP in FY15 with advance 
procurement (AP) for the 29 MH-60R aircraft (and full procurement of 8 
MH-60S aircraft). If the Navy returns to BCA levels in FY16, the 
subsequent fiscal constraints would challenge our ability to procure 
the 29 aircraft. MH-60R procurement would be aligned to force structure 
reductions. This scenario may cause MH-60R MYP contract termination 
which could cause contract termination costs and reduce rotary wing 
capacity for Navy.
    We have not determined the exact costs and fees associated with a 
cancellation. Cancellation fees would be calculated in accordance with 
Federal Acquisition Regulations. Any cancellation decision and 
notification would occur after the FY16 budget is approved by Congress.
    The cost to procure 29 MH-60R aircraft is estimated at $760 
million; the exact amount will be based on the FY15 appropriation. Both 
MYP contracts (MH-60R and MH-60S) require FY15 AP funding in order to 
maintain multi-year aircraft pricing for FY15. Navy will continue to 
work with Congress and our industry partners on a resolution for the 
FY16 budget submission.   [See page 35.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 12, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. How are you incorporating lessons learned from 
contingency contracting in Iraq and Afghanistan into the professional 
military education of your military and civilian personnel?
    Secretary Mabus and Admiral Greenert. In conjunction with the 
Office of the Secretary of Defense, Joint Staff and other Military 
Services, the Department of the Navy (DON) is actively engaged in 
efforts to institutionalize Operational Contract Support (OCS) through 
a variety of initiatives in the areas of education, training, joint 
exercises, doctrine, and service-level policies; incorporating lessons 
learned from exercises and current operations. The Navy is an active 
member of the DOD OCS Functional Capabilities Integration Board, which 
provides oversight for all ongoing and planned OCS related initiatives 
across the Department.
    While the DON is in the initial stages of fully developing its OCS 
capability, funding for OCS initiatives will continue to face 
resourcing challenges and fiscal risk in light of the Department's 
overall limited resources.
    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. How are you incorporating lessons learned from 
contingency contracting in Iraq and Afghanistan into the professional 
military education of your military and civilian personnel?
    General Amos. The Marine Corps is actively engaged with the Office 
of the Secretary of Defense, Joint Staff and other Military Services in 
efforts to institutionalize Operational Contract Support (OCS). The 
Department of Defense (DOD) FY14-17 OCS Action Plan, currently in 
staffing, identifies specific actions the Marine Corps is taking to 
close the remaining OCS capability gaps. The Marine Corps has taken on 
a bigger role in OCS implementation within DOD, and has been designated 
as an associate member of the DOD OCS Functional Capabilities 
Integration Board (FCIB), which provides oversight for all OCS related 
initiatives across DOD.
    The Marine Corps is making great progress by incorporating lessons 
learned from exercises and current operations to institutionalize OCS 
across the Corps. Through a variety of OCS initiatives in the areas of 
training and education, organization, doctrine and service level 
policy, the Marine Corps is defining OCS within its unique warfighting 
mission.
    The Marine Corps OCS initiatives include: employment of an OCS cell 
within the Marine Air Ground Task Force (MAGTF) Logistics Staff to 
support contract planning and contractor integration for Operation 
Enduring Freedom; developed OCS specific training scenarios to 
incorporate into Mission Rehearsal Exercises (MRX) for deploying 
forces; establishing OCS focused billets within our Marine 
Expeditionary Forces as well as the Marine Corps Service Component 
Command assigned in support of the Combatant Commanders; drafting 
policy on OCS responsibilities at the various levels of operation and 
support within the Marine Corps. The Marine Corps is committed to 
establishing OCS capability to support current and future contingency 
missions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. General Amos, as the war in Afghanistan dies down, what 
is your long-term plan for the wounded warrior regiment?
    General Amos. Keeping Faith with Marines, Sailors and their 
families remains one of my top priorities. You have my commitment that, 
the Marine Corps, through the Wounded Warrior Regiment (WWR), will 
continue recovery care in times of war and in peacetime. We recognize 
that recovery care must be enduring in view of issues resulting from 
the current decade of war, including, catastrophic injures requiring 
acute care, traumatic brain injury, and complex psychological health 
problems. These problems are not solved by short-term care and require 
continuing services.
    The Marine Corps' post-2014 strategy and our reduced presence in 
Afghanistan will result in fewer combat casualties; however, currently 
50 percent of the WWR's Marines are ill or injured outside of a combat 
zone. While we will ensure our capabilities remain at 100 percent, the 
WWR is weighing options to streamline its global presence while 
preserving flexibility to ramp-up capabilities if requirements emerge. 
Viable options to right size WWR's global presence may include 
converting peripheral detachments to liaison teams with Recovery Care 
Coordinator capacity. The concentration of care would be provided at 
five ``Recovery Centers of Excellence'': Camp Pendleton, Naval Medical 
Center San Diego, Walter Reed National Military Medical Center, Camp 
Lejeune, and San Antonio Military Medical Center.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Where have you had to accept risk in your research 
and development initiatives? Which R&D initiatives have you protected 
as core to your future needs?
    Admiral Greenert. Some risk was accepted in PB-15 in programs such 
as Next Generation Jammer (NGJ), F/A-18 improvements, and Unmanned 
Carrier Launched Airborne Surveillance and Strike (UCLASS).
    Navy continues to invest in the Ohio Replacement Program (ORP)--
keeping our top priority program on track. Navy has budgeted $1.2 
billion in FY 2015 for ORP. FY 2015 research and development will focus 
on the propulsion plant, missile compartment development, and platform 
development technologies like the propulsor, electric actuation, 
maneuvering/ship control, and signatures. In support of longstanding 
bilateral agreements with the United Kingdom these funds also provide 
for joint development of missile launch technologies. To meet the cost 
targets for the program, the Department also continues design for 
affordability.
    To protect Navy's future needs, R&D in other programs received 
modest or no reductions in PB-15 including: Air and Missile Defense 
Radar (AMDR), Science and Technology (S&T), Joint Strike Fighter (JSF), 
P-8, and AEGIS Combat System.
    Several key programs received additional RDT&E funding in PB-15. 
These include Next Generation Land Attack Weapon (NGLAW), Railgun, MQ-4 
Triton, and E-2D Advanced Hawkeye.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I would like to understand how the budget supports 
equipping the Navy to address ISR requirements in the Asia-Pacific 
region. As you know, the Pacific area is incredibly expansive making it 
a challenge for military planning. What kind of technologies is the 
Navy investing in to support the Pacific-focused military strategy? I 
am especially interested in how unmanned systems like the MQ-4C Triton 
can help meet the unique challenges of this region.
    Secretary Mabus. The expansiveness of the Pacific area does present 
unique challenges in both time and distance. The Navy is developing and 
investing in technologies and capabilities to deliver scalable, 
persistent, and networked Intelligence, Surveillance, Reconnaissance, 
and Targeting (ISR&T) providing battle space awareness across the full 
range of maritime missions. The Navy will provide the warfighter with 
the right sensor, on the right platform, at the right place and time, 
for the right effects. MQ-4C Triton leverages reach and persistence and 
when integrated with manned platforms holds potential adversaries at 
risk earlier and over longer periods of time. In its primary role, MQ-
4C Triton is intended for operational and tactical users such as the 
Joint Forces Maritime Component Commander, Carrier Strike Group, 
Expeditionary Strike Group, and Surface Action Group by providing 
intelligence preparation of the environment and a persistent source of 
information to maintain the Common Operational and Tactical Picture of 
the maritime battle space. The 360-degree Field of Regard sensor suite 
on MQ-4C Triton includes: Multi-Function Active Sensor (MFAS) maritime 
radar which is an AESA radar with search, Synthetic Aperture Radar 
(SAR) and Inverse Synthetic Aperture Radar (ISAR) modes; Electro-
Optical/Infrared (EO/IR) sensor; Automatic Identification System (AIS) 
receiver; and Electronic Support Measures (ESM).
    Ms. Bordallo. I understand that there has been an active debate 
within the Navy regarding the role of the UCLASS program and what 
missions it will fulfill. It seems some argue that the Navy needs 
additional ISR assets as soon as possible and basing these on an 
aircraft carrier could provide a number of benefits. On the other side, 
are those suggesting that the most effective way to utilize aircraft 
carriers and project power into the future is by developing a robust, 
survivable or ``stealthy'' platform that is capable of operating in 
contested airspace. What do you think and why? Although I appreciate 
the need for additional ISR, I worry that those requirements could be 
filled by other means and developing another unmanned system that can't 
operate in an A2/AD environment is short-sighted.
    Secretary Mabus. The Navy remains committed to the Unmanned Carrier 
Launched Airborne Surveillance and Strike (UCLASS) program, which will 
provide a carrier-based UAS to extend the ISR and precision strike 
reach of the air wing in a contested environment. UCLASS operational 
requirements were approved by the CNO on 5 April 2013 and have remained 
constant. They were subsequently validated by the JROC to align with 
the DOD's comprehensive capability. These requirements delineate the 
need for CVN based ISR&T to meet today's operational needs and future 
operations in contested environments. The in-depth and comprehensive 
discussions you reference centered not on the operational requirement, 
but on the Government's desire to define to the industry base the need 
to ensure the system procured today had the required future capability 
to achieve contested operational requirements. It was less a debate and 
more of an analysis to understand the balance between cost, schedule, 
technology, and industrial base manufacturing capability. The resulting 
UCLASS acquisition strategy leverages industry's ability to deliver 
within 4-5 years from contract award, a capable and survivable air 
vehicle within the $150M cost per orbit requirement, while preserving 
the ability to incrementally increase Air Vehicle (AV) capability in 
the future to match evolving threats. The in-depth analysis referenced 
herein will result in a UCLASS system that includes CVN based ISR &T 
along with precision strike with robust survivability capable of 
operating in denied environments.
    Ms. Bordallo. I would like to understand how the budget supports 
equipping the Navy to address ISR requirements in the Asia-Pacific 
region. As you know, the Pacific area is incredibly expansive making it 
a challenge for military planning. What kind of technologies is the 
Navy investing in to support the Pacific-focused military strategy? I 
am especially interested in how unmanned systems like the MQ-4C Triton 
can help meet the unique challenges of this region.
    Admiral Greenert. The expansiveness of the Pacific area does 
present unique challenges in both time and distance. The Navy is 
developing and investing in technologies and capabilities to deliver 
scalable, persistent, and networked Intelligence, Surveillance, 
Reconnaissance, and Targeting (ISR&T) providing battle space awareness 
across the full range of maritime missions. MQ-4C Triton provides reach 
and persistence, and when integrated with manned platforms, holds 
potential adversaries at risk earlier and over longer periods of time. 
In its primary role, MQ-4C Triton is intended for operational and 
tactical users such as the Joint Forces Maritime Component Commander, 
Carrier Strike Group, Expeditionary Strike Group, and Surface Action 
Group by providing intelligence preparation of the environment and a 
persistent source of information to maintain the Common Operational and 
Tactical Picture of the maritime battle space. The 360-degree Field of 
Regard sensor suite on MQ-4C Triton includes: Multi-Function Active 
Sensor (MFAS) maritime radar which is an active, electronically scanned 
array (AESA) radar with search, Synthetic Aperture Radar (SAR) and 
Inverse Synthetic Aperture Radar (ISAR) modes; Electro-Optical/Infrared 
(EO/IR) sensor; Automatic Identification System (AIS) receiver; and 
Electronic Support Measures (ESM).
    Ms. Bordallo. I understand that there has been an active debate 
within the Navy regarding the role of the UCLASS program and what 
missions it will fulfill. It seems some argue that the Navy needs 
additional ISR assets as soon as possible and basing these on an 
aircraft carrier could provide a number of benefits. On the other side, 
are those suggesting that the most effective way to utilize aircraft 
carriers and project power into the future is by developing a robust, 
survivable or ``stealthy'' platform that is capable of operating in 
contested airspace. What do you think and why? Although I appreciate 
the need for additional ISR, I worry that those requirements could be 
filled by other means and developing another unmanned system that can't 
operate in an A2/AD environment is short-sighted.
    Admiral Greenert. The UCLASS operational requirements that I 
approved on 5 April 2013 have remained constant and have been validated 
by the JROC to align with the DOD's comprehensive capability. These 
requirements delineate the need for CVN based ISR&T to meet today's 
operational needs and future operations in contested environments. At 
EOC (within 4-5 years of air vehicle segment contract award), the 
UCLASS acquisition strategy will deliver a CVN-based ISR&T system 
within the affordability KPP cost guidelines ($150M per orbit) while 
allowing for growth capability to match evolving threats. The resultant 
UCLASS system will include CVN-based ISR &T, precision strike, and 
robust survivability for operating in denied environments.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. What is the plan for upgrading the 36 legacy H-1 engines 
that are installed in the updated H-1 aircraft, the AH-1Z and UH-1Y? If 
there is a plan, what avenues are being explored to fund this 
initiative and how can Congress help complete the upgrade of these 
aircraft in order to have a fleet of H-1s with the same engine? If 
there is not a plan, why not?
    General Amos. The 36 AH-1Z aircraft, equipped with legacy T700-401 
engines, are logistically supported and will continue to be as long as 
the engines remain in our inventory. This issue has been officially 
considered for funding by Headquarters Marine Corps during the creation 
of POM-14, POM-15, and POM-16 budgets as well as the Naval Aviation 
Enterprise Fleet Readiness Initiative for POM-16. Due to competing 
priorities in this fiscally constrained environment, the engine upgrade 
has thus far remained unfunded. However, we included this as a 
candidate for funding on the Marine Corps' Unfunded Requirements (UFR) 
submission and the President's Opportunity, Growth, and Security 
Initiative (OGSI) in the FY15 President's Budget submission. Additional 
funding associated with the OGSI will be used this year to upgrade 
these 36 AH-1Z aircraft.
    In the long term, the Marine Corps plans to buy T700-401C engines 
to replace these legacy engines. Upgrading these engines--to the T700-
401C--is a priority, and we continue to explore all avenues of funding 
for this initiative.
    Mr. Kline. In addition to constraints being imposed on the end-
strength of the force, constraints have also been imposed on 
capabilities; what are your top priorities for capabilities or 
resources in order to maintain the Marine Corps as the Nation's 
Expeditionary Force in Readiness? How has this been affected by the 
recent budgetary constraints?
    General Amos. In order to continue to execute the missions assigned 
the Marine Corps in both the Defense Strategic Guidance and execute our 
Title X responsibilities the Marine Corps must maintain a focus on 
capabilities that provide readily available scalable forces. We will 
retain a forward and ready posture that enables immediate crisis 
response. If required, this initial response force has the ability to 
composite with other forward forces to provide additional capability as 
needed to satisfy Geographic Combatant Commander requirements. We must 
be prepared as individuals and as a force to move rapidly, operate 
immediately, adapt to conditions and succeed in dispersed and austere 
environments. The key resources that provide us these capabilities are 
amphibious ships coupled with programs such as ACV, F35B, and the next 
generation of connectors. All of these will allow us to execute future 
amphibious operations from crisis response to forcible entry at the 
times and places of our choosing. Programs such as JLTV and G/ATOR will 
replace outdated legacy systems and allow Marines to be successful on 
the 21st century battlefield. Budgetary pressures continue to cause the 
Marine Corps to take a careful approach to balancing near term 
readiness with long term investments in capabilities. Planned 
reductions in FY16 and beyond would cause equipment modernization and 
many procurement programs to suffer cuts or elimination to protect the 
investments in the major acquisition programs detailed above.
    Mr. Kline. Please explain the tradeoffs made when designing the 
force and your opinion of how this will affect both the Marine Corps 
and national security in the short term and long term
    General Amos. The Marine Corps is designed as a forward-deployed 
force, immediately available for crisis response. It will be a ready 
force, involved with theater security activities, reassuring our 
partners and allies and deterring potential adversaries. In order to 
prioritize these emerging demands in a fiscally constrained 
environment, we accepted risk in Major Combat Operations and stability 
operations. The redesigned Marine Corps made tradeoffs in some high end 
capabilities, like armor and artillery, in order to concentrate on our 
role as America's expeditionary force in readiness.
    In the short term, our focus on readiness ensures that 20 of our 21 
battalions will be adequately trained and ready for a major war. 
However, should major war occur, we will be all in until the war is 
over. We will have very little left for crises that could occur in 
other parts of the world. To meet presence demands, our force will 
maintain a high operational tempo at 1:2 deployment to dwell ratio 
which will increase risk by stressing training requirements and 
straining our career force.
    The long term impacts depend in large part on resourcing levels. A 
return to sequestration in FY16 with a 175k force would equate to high 
risk. At this lowered resource level, our units that deploy to combat 
would not be as well trained, and would be slower arriving. This means 
that it will take longer to achieve our objectives, and the human cost 
will be higher.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. As you are well aware, the Army's Common Remotely 
Operated Weapon Station, or CROWS, is under full-materials release, 
with more than 11,000 systems in service. I am sure you are aware that 
the CROWS system would allow Marines to engage the enemy from inside 
the relative safety of an armored vehicle; using a joystick and a 
computer screen, benefiting from the inherent advantages of a state of 
the art sensor system that would allow them to engage the enemy in all 
conditions. General, one would assume that a system such as CROWS, with 
a proven capacity to protect troops, a combat proven legacy, and a 
significant fielding investment already made by the Army, would be very 
attractive to the Marine Corps. Even more so now that the Navy has 
already adopted this system. General, can you tell this committee about 
the Marine Corps' current thinking regarding procurement of this 
system?
    General Amos. The Marine Corps Warfighting Lab (MCWL) assessed the 
Commonly Remotely Operated Weapons Station (CROWS) Remote Weapons 
Station (RWS) on a HMMWV in 2010 in Camp Lejeune. While the assessment 
indicated there were some gains in terms of operator protection, 
accuracy and nighttime visibility, the Marines using the system 
reported degradation in their situational awareness and a loss of field 
of view. MCWL performed technology investigations to address these 
challenges, however no formal requirements resulted from their efforts. 
MCWL later transferred the RWS systems to the Office of Naval Research 
for use on their Gunslinger Packages for Advanced Convoy Security 
(GunPACS) on our Medium Tactical Vehicle Replacements (MTVRs).
    There have been no further requirements generated by our Marines in 
the operating forces to procure a remote weapons system, of which CROWS 
is one example.
    We have made provisions within future requirements for Joint Light 
Tactical Vehicle (JLTV) and Amphibious Combat Vehicle (ACV) to 
integrate a remote weapons system. Further, government sponsored 
technology demonstrations and evaluations have been conducted to better 
understand RWS performance. Platform specific requirements are 
currently under review. Future research and development will explore 
means to mitigate Situational Awareness degradation and effectively 
integrate RWS technology into our military vehicles.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Please provide the calculations that support the 
statement that a $1 increase in the price of a barrel of oil costs the 
Navy $30,000,000 in increased fuel costs.
    Secretary Mabus. On average, the DON uses 30 million barrels (bbls) 
of oil per year. Therefore, a $1 increase in the cost of a barrel of 
oil effectively results in a $30 million annual bill to the Department. 
Department of Defense fuel purchases are made by the Defense Logistics 
Agency (DLA) Energy Working Capital Fund.
    In FY11, the DON budgeted for fuel costs at $127.26/bbl. When the 
standard price increased on June 1, 2011 to $165.90/bbl, DON actually 
paid $38.64/bbl more than budgeted for four months of the fiscal year. 
Thus, the additional DON FY11 fuel costs were just over $500M.
    Similarly, in FY12, DON budgeted for fuel costs at $131.04/bbl. 
This price was set by the Office of Management and Budget (OMB) and the 
Office of the Secretary of Defense (OSD) Comptroller in November 2010. 
However, the price of petroleum increased between November 2010 and 
October 2011, resulting in DLA Energy adjusting the price to $165.90/
bbl to ensure solvency of its Working Capital Fund. The price of fuel 
was adjusted three more times that year with the total fuel costs 
exceeding the initial DON budgeted amount by approximately $500M. In 
recent years, DON has covered its additional fuel costs through 
reprogramming funding from other defense accounts.
    From FY11-FY13, the Services received an unfunded bill of $3.2B. If 
OSD had not reprogrammed $2B in FY12 and FY13, the Services would have 
seen a $5.2B increase to their fuel costs. Unfunded fuel bills in the 
year of execution significantly impact training, operations, and 
ultimately, national security.
    Mr. Conaway. What is the Navy's total cost for fuel annually? And, 
how much fuel does the Navy purchase annually?
    Secretary Mabus. According to our financial records, the Department 
of the Navy (DON) purchased a total of 30,052,000 barrels of oil for 
worldwide missions in FY 2012. Further, an additional 8,422,000 barrels 
were procured for overseas contingency operations (OCO), bringing the 
total number of barrels of oil purchased that year to 38,474,000. Under 
normal operations, DON typically uses about 30 million barrels a year.
    FY 2012 was a particularly volatile year in the oil markets. That 
year the Services were budgeted a standard price of refined product of 
$131.04 per barrel. As a result of upward price movements and market 
volatility, the actual price paid by the Services for refined product 
was $145.18 per barrel. This left a balance of $14.14 per barrel the 
Department had to accommodate in FY 2012 and resulted in unfunded bill 
of more than $500 million in the year of execution. Thus, the total 
cost for fuel in FY 2012 was $5,585,655,320.
    Mr. Conaway. Of this total cost, what percentage does foreign oil 
account for annually?
    Secretary Mabus. DLA Energy does not track the sources of crude 
oil, except to ensure that crude oil does not come from prohibited 
sources (Iran, Sudan, and North Korea). As oil is a fungible product, 
once it enters the refinery stream and fuel distribution network, there 
is no meaningful way to know where the refined product came from.
    Mr. Conaway. Of this percentage, how much foreign oil is purchased 
when the Navy refuels in foreign ports?
    Secretary Mabus. DLA Energy does not track the sources of crude 
oil, except to ensure that crude oil does not come from prohibited 
sources (Iran, Sudan, and North Korea). As oil is a fungible product, 
once it enters the refinery stream and fuel distribution network, there 
is no meaningful way to know where the refined product came from.
    Mr. Conaway. Won't the Navy be reliant on some percentage of 
foreign oil by necessity of operating in forward theaters where it must 
refuel in foreign ports?
    Secretary Mabus. Yes, refueling in foreign ports is done by fuel 
provided in that foreign port. And increasingly, more alternative fuels 
are entering the foreign distribution networks. Moreover, competitively 
price alternative fuels, foreign or domestic, provide greater 
flexibility and imply greater cost stability as a result.
    Mr. Conaway. When the Navy purchases oil in the U.S., how do you 
know, or distinguish, what oil is from North America and what is 
foreign imported from overseas?
    Secretary Mabus. At the point of purchase by DLA Energy, it is 
unknown whether oil originates from the United States, elsewhere in 
North America, or from another foreign country. DLA Energy does not 
track the source of crude oil, except to ensure that crude oil does not 
come from prohibited sources.
    Mr. Conaway. When refueling in foreign ports, what percentage of 
annual foreign oil purchases are conducted with the SEACARD program 
that secures a predetermined price negotiated and contracted by the 
Defense Logistics Agency?
    Secretary Mabus. Of the nearly 1.3 billion gallons of fuel the Navy 
purchases annually, SEACARD purchases made in calendar year (CY) 2013 
amounted to 8.67 million gallons, and were almost entirely for Marine 
Gas Oil (MGO). MGO is a commercial substitute that is approved for use 
as an alternative when the Navy's preferred marine fuel, F-76, is not 
available. The remainder of SEACARD purchases in CY13 were sourced from 
the bulk fuel programs, which also negotiates and contracts either an 
annual or three-year fuel procurement.
    Compared to the bulk fuels purchase program annual requirements for 
the Western Pacific and Atlantic/European/Mediterranean programs in 
2013, the SEACARD purchase amounts represent approximately 2.8% of the 
total F-76 overseas requirements.
    Mr. Conaway. Do you anticipate transporting U.S.-produced biofuels 
to foreign ports in order to reduce our dependence on foreign oil?
    Secretary Mabus. DLA Energy does not track the sources of crude 
oil, except to ensure that crude oil does not come from prohibited 
sources (Iran, Sudan, and North Korea). As oil is a fungible product, 
once it enters the refinery stream and fuel distribution network, there 
is no meaningful way to know where the refined product came from.
    In all likelihood, the majority of fuels acquired in foreign ports 
come from foreign sources. And increasingly, more alternative fuels are 
entering the foreign distribution networks. Moreover, competitively 
price alternative fuels, foreign or domestic, provide greater 
flexibility and imply greater cost stability as a result.
    Mr. Conaway. In previous testimony, you mentioned that transporting 
conventional fuel into Afghanistan has cost lives--if biofuels replace 
conventional fuels, will the U.S. no longer have to use convoys to 
transport biofuels to theaters of war?
    Secretary Mabus. Alternative fuels are intended to be drop-in 
replacements that function in a manner identical to the petroleum that 
they displace. Alternative fuels increase the fuel supply base and give 
our forward deployed troops additional fuel flexibility. Reducing the 
reliance on fuel convoys to transport fuel into theater, the USMC has 
introduced a number of renewable energy technologies such as solar-
powered battery chargers, tent liners, LED lighting, and renewable 
power generators that reduce fuel requirements while maintaining or 
enhancing capabilities. In Afghanistan, these technologies were made 
available to all battalions operating in theater, resulting in lower 
fuel consumption and reducing demands to transport fuel into theater.
    Mr. Conaway. Do you foresee a time where the U.S. and our ally and 
partner in North America cannot produce oil?
    Secretary Mabus. In order to serve the national interest the DON 
must have secured access to reliable sources of energy to train for and 
execute its missions. Planning for a future where that energy source 
remains tied to a single commodity and all its attendant risks is not 
in the best interest of either the DON or the Nation that it serves.
    Oil is a finite resource. It would be imprudent to rely on that 
single commodity, riding its price shocks and supply constraints until 
the very last drop, before seeking alternative sources.
    Mr. Conaway. Does it make sense to stand up an entirely new 
industry when we already have one that efficiently and effectively 
provides for our energy needs right now and according to experts will 
be able to do so far into the future?
    Secretary Mabus. While the oil market has been able to supply fuel 
to the DON, the problem of at what cost still remains. In FY11 and FY12 
the DOD saw an unfunded bill in the year of execution of $3 billion due 
to sharp price movements and volatile markets. In FY13, oil price 
shocks and volatility would have resulted in an additional $1 billion 
unfunded bill had it not been for the reprogramming of DOD funds. This 
unpredictable global commodity has direct and negative impacts on 
training, readiness, and national security.
    It is irresponsible and in direct conflict to our national security 
to not pursue alternative fuels. As major consumers of liquid fuel, the 
United States as a whole and the DOD in particular would greatly 
benefit from a competitive, domestic renewable fuels industry capable 
of broadening the commodity supply base and ultimately helping to ease 
the impacts of volatility oil markets. Further, oil is a finite 
resource and to rely solely on this one resource until the day it runs 
out is once again at direct odds with our Nation's security.
    Mr. Conaway. In preparation for the Great Green Fleet in 2016, how 
much money do you expect to spend on biofuels?
    Secretary Mabus. The DON will only purchase biofuels at a price 
cost competitive to petroleum-based fuel. The integration of 
competitively priced drop-in biofuel with petroleum-based fuels marks 
the start of the ``new normal,'' where drop-in biofuels will be fully 
incorporated into logistics and operations. One early indicator of the 
price that DON can expect to pay in 2016 is the average price of the 
DPA Title III alternative fuel companies. They have committed to 
provide more than 100 million gallons per year with production starting 
in 2016 at an average price point of less than $3.36/gallon. For 
comparison, DLA Energy's standard fuel price is $3.73/gallon. 
Competitively priced drop-in biofuel is on track to begin entering 
DOD's distribution system in 2015 and will provide greater flexibility 
and financial stability to DOD fuel costs. These fuels also provide the 
ability to offset the $1B fuel cost adjustments that have occurred 
several times in recent years.
    Mr. Conaway. How much was the DPA biofuel purchase that you 
mentioned in your written testimony?
    Secretary Mabus. To date, no biofuel purchases have been made 
through the DPA. Beginning in 2016, the DPA companies will be producing 
biofuel at commercial scale. Based upon their commitments, the DPA 
companies stand to:
    <bullet>  produce more than 100 million gallons per year of drop-
in, military compatible fuels;
    <bullet>  at a weighted average price of less than $3.36 per 
gallon; and
    <bullet>  with at least 50% lower lifecycle greenhouse gas (GHG) 
emissions than that of conventional fuel.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. The events at Forward Operating Base Delhi from July 
24 to August 10, 2012 and the related referral of Major Jason Brezler 
to a Board of Inquiry are the subject of criminal investigations by the 
Justice Department and the military, and civil investigations by the 
Department of Defense and Marine Corps inspectors general. Is it 
premature to separate Major Brezler, a current or prospective witness 
in these investigations, from the Marines at this time?
    General Amos. Board of Inquiry procedures are designed to provide 
officers full and fair hearings when there is reason to believe they 
have not maintained required standards of performance or conduct and 
may therefore be separated for cause. These administrative separation 
proceedings are independent of the investigations by the Justice 
Department and the military and civil investigations by the Department 
of Defense and Marine Corps Inspectors General. Regardless of whether 
Major Brezler is ultimately separated from the Marine Corps, he may 
serve as a witness in these investigations.
    Mr. Coffman. Were the reported statements of the Marines' Office of 
Legislative Affairs to the House Armed Services Committee staff circa 
October 30, 2013 that Major Jason Brezler (1) sent classified 
information from home, (2) waited six weeks to self-report a possible 
spillage of classified information, (3) destroyed evidence, (4) had his 
computer confiscated, (5) had 107 classified documents his computer, 
all of which were (6) clearly marked as such, accurate based on 
information available to the Marines at that time? Are they supported 
by sworn testimony at Major Brezler's December 17-19 Board of Inquiry?
    General Amos. Yes, the reported statements reflected the most 
accurate information available to the Marine Corps at the time. Boards 
of Inquiry receive extensive review of both the legal and the factual 
sufficiency of the proceedings. Evidence at a Board of Inquiry, which 
is an administrative proceeding, can include documentary evidence, 
sworn testimony, sworn and unsworn statements of the respondent, and 
other forms of evidence. At this stage of review, it is not possible to 
determine the precise format of the evidence that led the Board of 
Inquiry to its findings and recommendations. Further, because Major 
Brezler's Board of Inquiry is still under review, it would be 
inappropriate to comment on the proceedings at this point.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. I understand that the Navy is considering ending its 
buy of the highly praised MH-60R helicopter after this year's buy--
which would leave the Navy with 29 aircraft short of its requirement 
and would break the current H-60 multi-year procurement. What is the 
termination liability of such a move and what are the effects this will 
have on the price of the Army UH-60M aircraft for next year if the 
multi-year is broken? I understand the necessities of your budget 
crunch, but will this have a negative effect on the Navy's operational 
capability being short this many aircraft?
    Secretary Mabus and Admiral Greenert. A final decision on 
maintaining or terminating the MH-60R multi-year procurement (MYP) 
contract has been deferred to FY16. Our proposed FY15 budget fully 
funds the MYP in FY15 with advance procurement (AP) for the 29 MH-60R 
aircraft (and full procurement of 8 MH-60S aircraft). If the Navy 
returns to BCA levels in FY16, the subsequent fiscal constraints would 
challenge our ability to procure the 29 aircraft. MH-60R procurement 
would be aligned to force structure reductions. This scenario may cause 
MH-60R MYP contract termination which could cause contract termination 
costs and reduce rotary wing capacity for Navy.
    We have not determined the exact costs and fees or effects on Army 
UH-60M associated with a cancellation. Cancellation fees would be 
calculated in accordance with Federal Acquisition Regulations. Any 
cancellation decision and notification would occur after the FY16 
budget is approved by Congress.
    The cost to procure 29 MH-60R aircraft is estimated at $760 
million; the exact amount will be based on the FY15 appropriation. Both 
MYP contracts (MH-60R and MH-60S) require FY15 AP funding in order to 
maintain multi-year aircraft pricing for FY15. Navy will continue to 
work with Congress and our industry partners on a resolution for the 
FY16 budget submission.
    Mr. Brooks. I saw that the President's Budget cut 29 MH-60R 
helicopters from the planned procurement. I wonder how this will 
negatively impact the Department, the warfighter, and, ultimately, the 
taxpayer. Won't the USG, specifically the Department of the Navy, be 
faced with termination liability? Won't breaking the multi-year cost 
close to the amount of the deleted 29 helicopters?
    Secretary Mabus and Admiral Greenert. A final decision on 
maintaining or terminating the MH-60R multi-year procurement (MYP) 
contract has been deferred to FY16. Our proposed FY15 budget fully 
funds the MYP in FY15 with advance procurement (AP) for the 29 MH-60R 
aircraft (and full procurement of 8 MH-60S aircraft). If the Navy 
returns to BCA levels in FY16, the subsequent fiscal constraints would 
challenge our ability to procure the 29 aircraft. MH-60R procurement 
would be aligned to force structure reductions. This scenario may cause 
MH-60R MYP contract termination which could cause contract termination 
costs and reduce rotary wing capacity for Navy.
    We have not determined the exact costs and fees associated with a 
cancellation. Cancellation fees would be calculated in accordance with 
Federal Acquisition Regulations. Any cancellation decision and 
notification would occur after the FY16 budget is approved by Congress.
    The cost to procure 29 MH-60R aircraft is estimated at $760 
million; the exact amount will be based on the FY15 appropriation. Both 
MYP contracts (MH-60R and MH-60S) require FY15 AP funding in order to 
maintain multi-year aircraft pricing for FY15. Navy will continue to 
work with Congress and our industry partners on a resolution for the 
FY16 budget submission.
    Mr. Brooks. I understand that the Navy is considering ending its 
buy of the highly praised MH-60R helicopter after this year's buy--
which would leave the Navy with 29 aircraft short of its requirement 
and would break the current H-60 multi-year procurement. What is the 
termination liability of such a move and what are the effects this will 
have on the price of the Army UH-60M aircraft for next year if the 
multi-year is broken? I understand the necessities of your budget 
crunch, but will this have a negative effect on the Navy's operational 
capability being short this many aircraft?
    General Amos. The Marine Corps' procurement of aviation assets is 
planned and programmed in close coordination with the Department of the 
Navy (DON). The DON allocates a portion of their total obligation 
authority (TOA) to Marine Aviation, and as such, Marine Corps aircraft 
are procured with Navy ``Blue'' dollars.
    The Fiscal Year 2015 budget provides Marine Aviation with the best 
balance of requirements within the constraints of the Bipartisan Budget 
Agreement. We have a vested interest in Naval Aviation, but the Marine 
Corps' aviation portfolio does not include MH-60R aircraft. We defer to 
the Navy, as they continue to evaluate this issue as part of their 
Program Objective Memorandum for FY16 (POM-16) budget submission.
    Mr. Brooks. I saw that the President's Budget cut 29 MH-60R 
helicopters from the planned procurement. I wonder how this will 
negatively impact the Department, the warfighter, and, ultimately, the 
taxpayer. Won't the USG, specifically the Department of the Navy, be 
faced with termination liability? Won't breaking the multi-year cost 
close to the amount of the deleted 29 helicopters?
    General Amos. The Marine Corps' procurement of aviation assets is 
planned and programmed in close coordination with the Department of the 
Navy (DON). The DON allocates a portion of their total obligation 
authority (TOA) to Marine Aviation, and as such, Marine Corps aircraft 
are procured with Navy ``Blue'' dollars.
    The Fiscal Year 2015 budget provides Marine Aviation with the best 
balance of requirements within the constraints of the Bipartisan Budget 
Agreement. We have a vested interest in Naval Aviation, but the Marine 
Corps' aviation portfolio does not include MH-60R aircraft. We defer to 
the Navy, as they continue to evaluate this issue as part of their 
Program Objective Memorandum for FY16 (POM-16) budget submission.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. In a December 2012 Proceedings article entitled 
``Imminent Domain,'' you wrote that, ``Future conflicts will be won in 
a new arena--that of the electromagnetic spectrum and cyberspace. We 
must merge, then master those realms.'' Can you give this committee an 
update on the progress the Navy has made on its goal of improved 
electromagnetic decision-making across the fleet, given the vast array 
of threats we face today?
    Admiral Greenert. We have emphasized electromagnetic spectrum (EMS) 
decision-making across the Fleet and have continued to invest in EMS-
related programs. As I indicated in my article, our focus on the 
spectrum is underpinned by the convergence of the EMS and Cyberspace. 
They are inter-dependent components vital to modern warfare and are 
necessary for the delivery of integrated fires. As information becomes 
so intertwined with the transmission medium (light in a fiber
optic cable, terrestrial radio waves, or satellite links), our ability 
to leverage the EMS in its entirety and counter the adversary's use of 
it becomes a critical element of any Navy operation.
    We continue to integrate elements of cyberspace operations into the 
Fleet Response Training Plan (FRTP), preparing deployable units and 
strike groups to respond to the inherent challenges of operating in a 
contested electromagnetic and cyber environment. We placed focused 
effort toward initiatives being employed during fleet exercises with 
allies to assess, validate, refine, and deploy Tactics, Techniques, and 
Procedures that instill resiliency in a Command and Control Denied or 
Degraded Environment (C2D2E). Navy is focusing on updating and 
generating EMS-related decision making, doctrine, and operating 
concepts with a focus on force-level operations in denied environments.
    In addition to these Fleet initiatives, we continue to make 
significant progress in capability development. These efforts include 
investments in Research and Development (R&D), Science and Technology 
(S&T), and concept development in an effort to rapidly field advanced 
EMS decision-making technologies into existing programs of record. 
Focused investments by the Navy in EMS capabilities are also 
contributing to the Joint fight, including efforts to improve our 
electromagnetic situational awareness and command and control (C2) 
tools.
    Mrs. Walorski. In an era of declining defense budgets, how do we 
adequately invest for the future so that we are able to stay ahead of 
the emerging EW threat abroad?
    Admiral Greenert. I have made it a priority to continue investing 
in Navy EW programs at or above previous funding levels given the 
proliferation and sophistication of global EW threats.
    Science and technology (S&T) initiatives on the part of the Office 
of Naval Research (ONR) and others are critical to the success of our 
future EW capabilities. ONR is investing in the integration of EW, 
cyber, and communications systems to address EW threats in an 
integrated fashion with other systems that operate in and through the 
electromagnetic spectrum (EMS). We are transitioning these S&T efforts 
to the development of systems and programs with a common architecture, 
multiple functions, and with cross-platform (ship, aircraft, submarine) 
applications.
    New programs are being designed with agility and flexibility across 
the EMS ``built in.'' EMS agility is critical to both protecting Navy 
forces from detection and denying potential adversaries' access to the 
EMS in contested environments. Our investments enhance our spectrum 
agility by taking advantage of vulnerabilities in potential 
adversaries' position in and use of the EMS. Given the rate at which 
global EW threats are growing in sophistication and proliferating, 
current and future investments in programs and systems that use the EMS 
will be emphasized in order to maintain the overall efficacy of Navy 
integrated combat systems.
    Mrs. Walorski. I am pleased to hear that naval aviation is taking 
initial steps to analyze the feasibility of integrating the Dual Mode 
Brimstone (DMB) missile on the F/A-18 Super Hornet. We're aware of the 
small boat threat and always interested in hearing about ways to save 
money by leveraging existing technologies like the DMB. The missile 
reportedly would be helpful in defeating high speed maneuvering targets 
like swarming small boats and vehicles with its integrated semi-active 
laser and active radar seeker. I understand that the missile is fully 
developed and has been used extensively by UK Royal Air Force Tornado 
fighters in combat operations over Afghanistan and Libya with 
extraordinary accuracy and low collateral damage because of DMB's high-
quality seeker.
    It is my further understanding that the missile was successfully 
integrated on an MQ-9 Reaper aircraft and hit target vehicles traveling 
in excess of 70 miles per hour at the Naval Air Station in China Lake, 
California in January of this year. According to reports, the missiles 
are extremely accurate and are available now to help fill naval 
aviation requirements from both F/A-18 Super Hornets and Helicopters.
    If the initial integration feasibility assessments are positive, do 
you see value in expanding those activities in the coming fiscal 
year(s)?
    Admiral Greenert. If the initial integration feasibility 
assessments are positive, the Department of the Navy (DON) will examine 
DMB specific attributes versus the Small Diameter Bomb Increment II 
(SDB II) program. The F/A-18 E/F Hornet roadmap already includes 
funding for the SDB II weapon system. SDB II is an all-weather, moving 
target, standoff (40+ nautical mile) glide weapon that prosecutes 
wheeled, tracked, and maritime moving targets which is also a 
capability that DMB advertises. SDB II's IOC on the F/A-18 E/F is 
scheduled for FY19. SDB II's advantages over DMB are: it has a tri-mode 
seeker; is data-link capable; and a significantly greater maximum 
range. SDB II is a non-forward firing weapon. Should the
Fleet requirement for a new forward firing, air-to-ground weapon on the 
F/A-18 E/F and the MH-60 change, DMB may compete in the Joint 
Requirements Oversight Council (JROC) approved and validated Joint Air-
to-Ground Missile (JAGM) program.

                                  <all>

</pre></body></html>
